<html>
<title> - BUILDING AMERICAN COMPETITIVENESS: EXAMINING THE SCOPE AND SUCCESS OF EXISTING FEDERAL MATH AND SCIENCE PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                   BUILDING AMERICAN COMPETITIVENESS:
                        EXAMINING THE SCOPE AND
                      SUCCESS OF EXISTING FEDERAL
                       MATH AND SCIENCE PROGRAMS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              May 3, 2006

                               __________

                           Serial No. 109-39

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-983                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 3, 2006......................................     1
Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Chairman, Committee on 
      Education and the Workforce................................     2
        Prepared statement of....................................     3
    Miller, Hon. George, Ranking Minority Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6
    Norwood, Hon. Charlie, a Representative in Congress from the 
      State of Georgia, prepared statement of....................    53
    Porter, Hon. Jon, a Representative in Congress from the State 
      of Nevada, prepared statement of...........................    54

Statement of Witnesses:
    Archey, William T., president and chief executive officer, 
      American Electronics Association...........................    24
        Prepared statement of....................................    26
    Ashby, Cornelia M., Director, Education, Workforce, and 
      Income Security Issues, U.S. Government Accountability 
      Office.....................................................    13
        Prepared statement of....................................    15
    Luce, Tom, Assistant Secretary, Office of Planning, 
      Evaluation and Policy Development, U.S. Department of 
      Education..................................................     8
        Prepared statement of....................................    10

Additional Testimony Submitted:
    Wadhwa, Vivek, adjunct professor, Pratt School of 
      Engineering, Duke University...............................    54


                   BUILDING AMERICAN COMPETITIVENESS:
                    EXAMINING THE SCOPE AND SUCCESS
                        OF EXISTING FEDERAL MATH
                          AND SCIENCE PROGRAMS

                              ----------                              


                         Wednesday, May 3, 2006

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:30 a.m., in room 
2175, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon [chairman of the committee] presiding.
    Present: Representatives McKeon, Johnson, Ehlers, Biggert, 
Platts, Tiberi, Marchant, Price, Boustany, Foxx, Miller, 
Kildee, Owens, Payne, Woolsey, Hinojosa, Tierney, Kucinich, Wu, 
Holt, Davis, McCollum, Grijalva, and Van Hollen.
    Staff Present: Amanda Farris, Professional Staff Member; 
Ray Grangoff, Legislative Assistant; Jessica Gross, Press 
Assistant; Kimberly Ketchel, Deputy Press Secretary; Deborah L. 
Emerson Samantar, Committee Clerk/Intern Coordinator; and Rich 
Stombres, Deputy Director of Education and Human Resources 
Policy; Alice Cain, Minority Legislative Associate/Education; 
Lauren Gibbs, Minority Legislative Associate/Education; Lloyd 
Horwich, Minority Legislative Associate/Education; Tom Kiley, 
Minority Communications Director; Joe Novotny, Minority 
Legislative Associate/Education; Rachel Racusen, Minority Press 
Assistant; and Daniel Weiss, Special Assistant to the Ranking 
Member.
    Chairman McKeon. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    We are holding this hearing today to hear testimony on 
``Building American Competitiveness: Examining the Scope and 
Success of Existing Federal Math and Science Programs.'' under 
committee rule 1(b) committee statements are limited to the 
chairman and the ranking minority member of the committee. 
Therefore, if other members have statements they will be 
included in the hearing record.
    With that I ask unanimous consent for the hearing record to 
remain open for 14 days to allow member statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Without objection, so ordered.
    Good morning. Thank you all for joining us at this hearing, 
which will focus on American competitiveness, and more 
specifically, on the scope and success of Federal math and 
science education programs.
    This marks the second in a series of hearings the Education 
and the Workforce Committee is holding on the subject of 
American competitiveness. In our last hearing, we heard from 
Secretary of Labor Chao and Secretary of Education Spellings, 
as well as a panel from the business community. Each witness 
provided their input on how the United States can sharpen its 
competitive edge. I believe that hearing laid a perfect 
foundation for what we are about to embark upon this morning.
    The goal for today's hearing can be summed up in three 
words, ``What's out there?'' we are here today to gain a better 
understanding of what Federal programs already exist to improve 
math and science education and how effective those programs are 
and perhaps what we can do to improve upon them.
    Competitiveness is not just a vital topic but a news worthy 
one as well. The urge of many in Washington, including some in 
this hearing room, is to blindly throw billions of dollars at a 
variety of new programs in the name of competitiveness, or 
innovation, as some are inclined to say.
    That, I believe, is not the appropriate course of action, 
not when there are more than 200 Federal math and science 
programs on the books, not when some 13 different Federal 
agencies already have a math or science focus, and not until we 
have a firm grasp of the Federal Government's current degree of 
success. In other words, to determine where to go next, it is 
best to gain a better understanding of where we already are.
    So what do we know? Well, we know that just last fall the 
Government Accountability Office released a report that 
quantified the myriad of Federal programs established to 
increase the numbers of students pursuing science, technology, 
engineering and math degrees, and we are fortunate to have a 
witness poised to testify on that report this morning.
    We know that in fiscal year 2004 alone we spent about $2.8 
billion on these programs. Yet in spite of this substantial 
taxpayer investment, some wonder whether the number of science, 
technology, engineering and math graduates will be sufficient 
to meet our Nation's future academic and employment needs. 
Thus, our competitive advantage remains very much an open 
question.
    Moreover, we know the GAO has recommended that before 
creating new Federal math and science programs we should know 
the extent to which existing programs are appropriately 
targeted and making the best use of Federal resources. 
Additionally, the GAO noted that in an era of limited financial 
resources and troubling Federal deficits, information about the 
effectiveness of these programs can help guide policymakers and 
program managers, and that information is what we are here to 
explore today.
    What else do we know? We know that earlier this year, as 
part of the Deficit Reduction Act, Congress established an 
Academic Competitiveness Council designed to identify and 
review the more than 200 programs within the 13 separate 
Federal agencies with a math or science focus.
    The Council will evaluate the effectiveness of the 
programs, determine areas of duplication, and recommend ways in 
which to integrate and coordinate them. Its activities recently 
began in earnest, and a final report must be submitted to 
Congress by next February, 2007. I am very grateful that today 
our committee will receive an update on the Council's 
activities thus far.
    Simply put, there is a good deal that we do know, but there 
is even more that we don't. Through this hearing and our entire 
series of hearings on American competitiveness, this committee 
will do its part in gathering as much information as possible 
about the extent and success of Federal math and science 
programs. Only then can we make sound, reliable programs about 
what to do next. I look forward to continuing our discussion 
this morning, and I am eager to hear thoughts from our 
witnesses.
    With that, I yield to my good friend, Mr. Miller, for his 
opening statement.
    [The prepared statement of Mr. McKeon follows:]

    Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, 
                Committee on Education and the Workforce

    Good morning, and thank you all for joining us at this hearing, 
which will focus on American competitiveness--and more specifically, on 
the scope and success of federal math and science education programs.
    This marks the second in a series of hearings the Education & the 
Workforce Committee is holding on the subject of American 
competitiveness. In our last hearing, we heard from Secretary of Labor 
Chao and Secretary of Education Spellings, as well as a panel from the 
business community. Each witness provided their input on how the United 
States can sharpen its competitive edge, and Ibelieve that hearing laid 
a perfect foundation for what we are about to embark upon this morning.
    The goal for today's hearing can be summed-up in three words: 
``what's out there?'' We're here today to gain a better understanding 
of what federal programs already exist to improve math and science 
education, how effective those programs are, and perhaps, what we can 
do to improve upon them.
    Competitiveness is not just a vital topic, but a newsworthy one as 
well. The urge of many in Washington--including some in this hearing 
room--is to blindly throw billions of dollars at a variety of new 
programs in the name of competitiveness--or ``innovation,'' as some are 
inclined to say.
    That, I believe, is not the appropriate course of action. Not when 
there are more than 200 federal math and science programs on the books. 
Not when some 13 different federal agencies already have a math or 
science focus. And not until we have a firm grasp of the federal 
government's current degree of success. In other words, in order to 
determine where to go next, it's best to gain a better understanding of 
where we already are.
    So what do we know? Well, we know that just last fall, the 
Government Accountability Office released a report that quantified the 
myriad of federal programs established to increase the numbers of 
students pursuing science, technology, engineering, and math degrees. 
And we are fortunate to have a witness poised to testify on that report 
this morning.
    We know that in Fiscal Year 2004 alone, we spent about $2.8 billion 
on these programs. Yet, in spite of this substantial taxpayer 
investment, some wonder whether the number of science, technology, 
engineering, and math graduates will be sufficient to meet our nation's 
future academic and employment needs. Thus, our competitive advantage 
remains very much an open question.
    Moreover, we know the GAO has recommended that before creating new 
federal math and science programs, we should know the extent to which 
existing programs are appropriately targeted and making the best use of 
federal resources. Additionally, the GAO noted that in an era of 
limited financial resources and troubling federal deficits, information 
about the effectiveness of these programs can help guide policy makers 
and program managers. And that information is what we're here to 
explore today.
    What else do we know? We know that earlier this year as part of the 
Deficit Reduction Act, Congress established an Academic Competitiveness 
Council designed to identify and review the more than 200 programs 
within the 13 separate federal agencies with a math or science focus. 
The Council will evaluate the effectiveness of the programs, determine 
areas of duplication, and recommend ways in which to integrate and 
coordinate them. Its activities recently began in earnest, and a final 
report must be submitted to Congress by February 2007. I'm very 
grateful that today, our Committee will receive an update on the 
Council's activities thus far.
    Simply put, there's a good deal that we do know, but there is even 
more that we don't. Through this hearing and our entire series of 
hearings on American competitiveness, this Committee will do its part 
in gathering as much information as possible about the extent and 
success of federal math and science programs. And only then can we make 
sound, reliable decisions about what to do next. I look forward to 
continuing our discussion this morning, and I yield to my friend Mr. 
Miller for any opening statement he may have.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman, and thank you for 
convening this hearing.
    I welcome the witnesses. I can't think of a more important 
subject matter for this committee at this time. We heard over 
and over again about how America is falling behind in other 
countries when it comes to math and science education. The 
latest example is a new report from the American college 
testing program that found only 26 percent of U.S. high school 
graduates in 2005 were prepared to succeed at entry level 
college science courses and only 41 percent were prepared to 
succeed in college level math courses. Success was loosely 
defined as a C or better.
    We have heard about how our Nation must successfully face a 
serious challenge from international contenders in order to 
keep our economy strong for a globalized world. Other countries 
from Asia to Europe are making aggressive investments in 
education, broadband access and in other initiatives to give 
their economies an innovative edge.
    The question is, what are we going to do, what kind of 
commitment are we going to make to keep America competitive for 
generations to come. Last year, Democrats sought the answer to 
this question by proposing a comprehensive innovation agenda. 
In order to maintain our top position in global innovation and 
leadership, we believe it essential to graduate 100,000 new 
scientists, engineers and mathematicians over the next 4 years, 
double the funding for overall basic research and development 
in the Federal Government, make broadband Internet technology 
affordable and accessible to all Americans within 5 years, 
achieve real energy independence within 10 years and support 
entrepreneurial small businesses.
    Democrats believe that only by making a renewed and 
sustained commitment to innovation will our Nation be able to 
maintain its global economic leadership and protect our 
national security and enjoy our prosperity at home with good 
American jobs. This was not a conclusion that was arrived at by 
Democrats out of whole air, this was after talking to CEOs of 
the high tech industry, in biotech industry, venture capital 
industry. In every corner of this country, people who are 
betting their companies, their futures, our economy, scientific 
discovery, their stockholders' money. All have said this is 
about America making a renewed and, importantly, a sustained, 
sustained commitment to innovation if we are going to be able 
to maintain our leadership in the world.
    Having said that, they also made it clear that they didn't 
believe, and we presented it to them as we didn't, this was a 
Democrat or Republican issue. It is an American issue.
    I hope that we can put partisanship aside, roll up our 
sleeves and do whatever it takes using the best ideas from the 
Democratic innovation agenda from the President's competitive 
initiative to maintain America's position in global innovation 
and leadership.
    Given this hearing's specific focus on math and science 
education, I would like to take a minute to talk about what 
steps we can improve K-12 schools.
    First, we cannot talk about competitiveness without talking 
about the need to get highly qualified teachers into every 
classroom. California alone will need to hire 80,000 to 100,000 
new teachers in the next 10 years. Too many of our children, 
especially those in high poverty schools, are taught by 
teachers who lack a major in the subject matter they teach. For 
example, 70 percent of the math classes in high poverty middle 
schools are taught by teachers without even a minor in math. 
Yet it still comes to a surprise when students are not 
proficient or they are not excited about a career involving 
math or science.
    Last year I introduced a bill to enhance teacher quality, 
the Teacher Excellence for All Children Act. The TEACH Act was 
introduced at that time. It will provide $2 billion of funding 
for school districts to reward outstanding math and science 
teachers who transfer to the hardest-to-staff schools and pay 
an increase of $12,500 a year.
    It would also recruit the top talent to teach math and 
science in our schools to provide $4,000 a year for up-front 
tuition assistance for outstanding graduate and graduate 
students who commit to teaching math or science in high school, 
elementary or secondary schools for 4 years. These scholarships 
would also be available to experienced teachers of other 
subjects who want to go back to school and get credentials 
necessary to teach math, science or other subjects which have a 
severe shortage of qualified teachers.
    Again, this isn't just an idea that we drew out of whole 
cloth. This is after talking to leaders in the business 
community, the Business Roundtable and others, the Teaching 
Commission, who said that this must be done. These are the 
people that would end up having to pay the taxes to supply the 
services to provide the talent, and they have said that this 
must be done. That is why we have supported this act. We hope 
to make this a bipartisan act. We have asked for sponsorships 
to that. It is very important that we do that.
    The other interesting fact is we have met with CEOs at 
Stanford University, when we met with them in Boston, when we 
met with them in Austin, we met with them in Seattle, the 
leaders in the biggest and most innovative companies in the 
world. They all put, again, increased resources available to 
education as the priority in terms of getting America back on 
track for a long cycle of American leadership in the world 
economy, in the areas of innovation.
    We are very encouraged by the fact that you are holding 
this hearing. We think that there is a great deal of urgency to 
this. We also believe that this cannot be something where we 
can start and go, start and go. People have to be able to rely 
on the sources being there. We are all reminded--Mr. Archey 
here has reminded us of the impact of the Moon shock.
    It was more than just sending a person to the Moon and 
bringing them back safely. It was about building the greatest 
public-private partnership in the histories of the world that 
led to three decades, four decades of innovation, of discovery, 
that nobody has matched in terms of the American ability and 
talent to do so.
    I consider these hearings crucial, I consider them urgent, 
and I believe that the Congress must now start to make 
decisions about the dedication of these resources to those 
areas that have shown such great promise to improve America's 
competitiveness in the world.
    Thank you, Mr. Chairman, for the time.
    [The prepared statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Ranking Minority Member, 
                Committee on Education and the Workforce

    Many of us in Congress have been warned by many from across the 
American economy and across the American intellectual community of the 
deficits that we now have when we look at our position, vis-a-vis other 
nations of the world--whether it is the number of graduate students in 
engineering, math, and sciences in China, Korea, and India, and 
elsewhere in the world--of the fact that we now rank 16th, down from 
11th, in broadband penetration in this country, or that our 12th 
graders still languish near the bottom in math and science by 
international comparisons. These are serious issues that deserve our 
serious attention and I welcome this hearing today.
    To help address these challenges, Democrats last year proposed an 
innovation agenda as a challenge to the Congress and the Administration 
to make innovation science and technology once again America's top 
priority in economic growth and job creation.
    In order to maintain our #1 position in global innovation and 
leadership, we believe it is essential to:
    <bullet> Graduate 100,000 new scientists, engineers and 
mathematicians over the next four years
    <bullet> Double the funding for overall basic research and 
development in the federal government
    <bullet> Make the miracle of broadband Internet technology 
affordable and accessible to all Americans within 5 years
    <bullet> Achieve real energy independence within 10 years, and
    <bullet> Support entrepreneurial small businesses
    Democrats believe that only by making this renewed and sustained 
commitment to innovation will our nation be able to maintain its global 
economic leadership, protect our national security and enjoy prosperity 
at home with good American jobs.
    When we were working on the Innovation Agenda, we met with CEOs of 
high-tech companies, biotech companies, with some of the leading 
venture capitalists in the world. They reminded us time and again that 
in the early 1960s when President Kennedy talked about sending a person 
to the moon and bringing that person back, that it was about creating 
the greatest public-private partnership in the history of the world 
where the federal government joined up with the private sector, with 
the academic centers in this country and created the legacy that we 
have been living off that led to the high-tech revolution and the bio-
tech revolutions where we have led the world. We may not have a 
Sputnik, but we do need that same sense of urgency.
    That said, competitiveness is not a Democratic issue or a 
Republican issue--it is an American issue--and I hope that this is an 
issue where we can put partisanship aside, roll up our sleeves and do 
whatever it takes--using ideas from the Democratic Innovation Agenda 
and from the President's Competitiveness Initiative--to maintain our #1 
position in global innovation and leadership. There is recognition on 
both sides of the aisle that you don't get to keep being Number One 
just by virtue of the fact that you're Number One. You have to earn it 
every day.
    There are two things that I think we can and must do better if we 
are to continue earning this distinction.
    First, we cannot talk about competitiveness without talking about 
teacher quality. California alone will need to hire 80,000--100,000 new 
teachers over the next 10 years, and how well we do in attracting the 
very best people to these jobs--and then keep them there--will make a 
tremendous difference in maintaining our competitive edge.
    Too many of our children-especially those in high-poverty schools-
are taught by teachers who lack a major in the subject they teach. For 
example, 70 percent of math classes in high-poverty middle schools are 
taught by teachers without even a minor in math. Then we are surprised 
when these students aren't proficient! We have to get serious about 
teacher quality--and I recently introduced a bill, the Teacher 
Excellence for All Children Act, that does just that. It provides over 
$2 billion in funding for school districts to reward outstanding math 
and science teachers who transfer into the hardest-to-staff schools 
with pay increases of $12,500 per year.
    A core component of the TEACH Act of 2005 is to improve math and 
science education for all children. This is achieved by recruiting top 
talent to teach math and science in our schools by providing $4,000 per 
year of up-front tuition assistance for outstanding undergraduate and 
graduate students who are studying to become teachers and who commit to 
teaching math or science in a high-need elementary or secondary school 
for four years. These scholarships are also available to experienced 
teachers of other subjects who want go back to school to get the 
credentials necessary to teach math, science, or another subject for 
which there is an acute shortage of qualified teachers.
    The TEACH Act also helps new math and science teachers build their 
skills through new teacher induction programs that will help them with 
the transition into teaching through working closely with mentor math 
and science teachers, a lighter teaching load, and other proven 
strategies that improve teacher satisfaction and retention.
    Second, we cannot talk about competitiveness without talking about 
No Child Left Behind. The debate on reauthorizing this law has the 
potential to leverage our education system into this century. When we 
reauthorize the law, we are going to get some pressure to un-do some of 
NCLB's core values, including meaningful accountability, and as a 
nation we cannot and must not afford to return to the status quo from 
before NCLB.
    Our competitive challenges mean we need all of our children more 
than ever. We cannot afford to leave any of our children behind--and 
part of the way we can help them move forward is to fully fund this 
law. The funding has not kept pace with what we've asked schools to 
do--to educate every child in this country to proficiency. Getting 
serious about meeting this goals would transform not only the lives of 
the students who aren't getting a first-rate education--and it would 
transform our nation. The shortfall between what was promised and what 
has been provided is $55 billion--serious money that would make a 
serious difference if we infused it into our classrooms.
    Lastly, we cannot talk about competitiveness without talking about 
our high school dropout problem either. A dropout rate of nearly 50 
percent in some communities bodes poorly not just for those who don't 
graduate, but also for their communities and our country. Investing in 
the education of every child in this country--and coming up with 
incentives to get students who have dropped out back into the 
classroom--should be part of any comprehensive approach to 
competitiveness. We must nurture the talent of all of our children.
    I look forward to hearing from today's panel.
                                 ______
                                 
    Mr. Boustany [presiding]. Thank you, Mr. Miller, for your 
opening statement. The committee is privileged to have a very 
distinguished panel of witnesses today. I would like to begin 
by welcoming all of you.
    The Honorable Tom Luce was confirmed as Assistant Secretary 
for the Office of Planning, Evaluation and Policy Development 
at the U.S. Department of Education in July 2005. His past 
experience includes being appointed five times to a major post 
by Texas Governors, including as Chairman of the Texas National 
Research Laboratory Commission, Chief Justice pro tempore of 
the Texas Supreme Court and delegate to the Education 
Commission of the States.
    Mr. Luce is perhaps best known for his role in 1984 as the 
Chief of Staff of the Texas Select Committee of Public 
Education, which produced one of the first major reform efforts 
among public schools.
    Our second witness is Ms. Cornelia Ashby. She has served in 
numerous capacities since joining the U.S. Government 
Accountability Office in 1973. Currently, Ms. Ashby serves as 
Director of Education, Workforce and Income Security, directing 
studies in numerous areas. Prior to this position, Ms. Ashby 
was GAO's Associate Director for Tax Policy and Administrative 
Issues.
    Last but not least, we have Mr. Bill Archey, who is 
President and CEO of the American Electronics Association, the 
AEA, the Nation's largest industry association representing the 
electronics and information technology industry. AEA represents 
about 2,500 companies that span the spectrum of high tech 
technology products from semiconductors in computers to 
telecommunications in software. From 1986 to 1994, Mr. Archey 
was with the U.S. Chamber of Commerce.
    Prior to joining the Chamber, Mr. Archey held a number of 
high level government positions, including Assistant Secretary 
for Trade Administration in the Department of Commerce from 
1983 to 1986.
    Before we start, I would like to remind the members that we 
will be asking questions of the witnesses after testimony. In 
addition, committee rule II imposes a 5-minute limit on all 
questions. For the witnesses, I know you are all experienced in 
doing this, but I will remind you about the lighting system. We 
will put the green light on when you begin. You will have 5 
minutes. When it hits yellow you will have 1 minute left. Red 
means to wrap it up.
    We will begin now with the Honorable Mr. Luce.

STATEMENT OF TOM LUCE, ASSISTANT SECRETARY, OFFICE OF PLANNING, 
EVALUATION AND POLICY DEVELOPMENT, U.S. DEPARTMENT OF EDUCATION

    Mr. Luce. Thank you, sir. I appreciate the opportunity to 
be here today with this committee as it considers this 
important topic. As you know, the President in the State of the 
Union message laid out an agenda for what he referred to as the 
American Competitiveness Initiative. I think it is very 
important that we in Congress take a real strong look at that, 
because we believe we have presented a balanced program that 
will address the desperate need in the K-12 pipeline to 
increase the flow of students who are prepared to have a 
foundation in life that they are going to need in math and 
science.
    This is not only to ensure the next generation of Nobel 
Prize winners, but it is also to ensure that my children, my 
grandchildren, will have an opportunity to have a well-paying 
job. I think we have a cultural and communication issue to 
communicate within the country that unlike when I graduated 
from high school, it is an absolute essential today that 
someone have a very solid math and science background if they 
are to succeed at all in life.
    That is because jobs today, such as an automobile mechanic, 
a welder, whatever, Intel chip factory floor worker, they are 
going to need a foundation in algebra. They have to think 
critically. They have to read technical manuals. I heard an 
alarming statistic last week from the college board and that is 
that there are 500,000 students across the country today who 
took the PSAT test in the eighth, ninth and tenth grades, 
500,000 who are qualified, based upon previous testing, to take 
and pass advanced placement calculus that do not take that 
subject.
    That is low-hanging fruit, if you will. Despite weaknesses 
in the system, we have 500,000 students that we are not 
attracting that could be the future innovators in our country.
    Second of all, you specifically asked me to address the 
Academic Competitiveness Council, which Congress created. I 
have been serving under that piece of legislation. Secretary 
Spellings is the chair of that cabinet level council, and I 
have been chairman of that working group that has already begun 
its work.
    It started with President Bush convening the council in 
March. We have had three subsequent working group meetings. We 
have divided into three different subgroups, one covering all 
K-12 math and science programs, one covering all post-secondary 
math and science programs, and a third covering outreach and 
awareness programs.
    Unlike the GAO report, or process, the Defense Department 
is also in this process. I suspect we will end up with an even 
larger number of programs and an even larger amount of money 
that we find is being spent across the government.
    I would add that we already know that we have 1,000 flowers 
blooming in those programs, probably some weeds, but of 
immediate concern is that none of these programs are coming to 
scale, which is what we desperately need in the country.
    We have lots of demonstration projects, lots of pilot 
programs, and what we need to do is to find the best and bring 
those to scale in our judgment. We have a tight time line, we 
are on schedule, the committees are working. Inventories from 
each civilian agency were due on May 1st.
    We have some of those in, some will be in by the end of 
this week. Each subgroup will study each of the programs, with 
a goal of trying to come to at least common metrics for each of 
these programs so that we really could have some comparative 
data as to how these programs are impacting student 
achievement.
    Unfortunately, most of these programs do not have student 
achievement data attached to them. Usually they are done on a 
more general evaluation technique, and one of the goals we hope 
to do is to agree upon and derive a consensus as to common 
metrics as to how these programs should be measured and also to 
make sure that we have specific goals for each of these 
programs.
    As you might expect, the goals for these programs vary 
across agencies. Some are addressed to meeting the needs of the 
top 1 percent of our students. Others are designed more 
generally. One of the things I am most concerned about that I 
think Congressman Miller would share this concern is that there 
are a lot of No Child Left Behind principles that are not being 
applied in these programs.
    In other words, a lot of the grant programs are not 
specifically addressed to teachers who are not highly 
qualified. What we know, based upon our department, the 
Education Department's own programs, often the teachers who 
sign up for those programs are the ones who already have 
content knowledge and are highly qualified. We need to do a 
better job of directing certain programs, not all of then, but 
certain programs to the needs of highly qualified teachers.
    We need to also direct programs specifically to schools 
that are not making adequate yearly progress as opposed to 
general guidelines in a program so that we are ensuring that we 
are following the principles of No Child Left Behind.
    I think we have a big opportunity here to really make a 
difference in how we approach math and science. One thing that 
we know right now is that we are telling the public school 
community various ways to do various things without any study 
of which are the best, which are producing the best results, 
which one, which programs are scalable. We will always have 
pilot programs. We will always have demonstration projects, but 
we need to bring a lot of things to scale.
    We will be on time in finishing the report that is due to 
Congress in January. We have already, as I said, broken into 
subgroups. We are working already from an outline of what we 
hope to submit to Congress. So we will be on time. We have had 
cooperation of every agency, and we look forward to reviewing 
with you what we find.
    [The prepared statement of Mr. Luce follows:]

    Prepared Statement of Tom Luce, Assistant Secretary, Office of 
    Planning, Evaluation and Policy Development, U.S. Department of 
                               Education

    Good morning. Thank you for inviting me here today to discuss the 
Administration's efforts to evaluate and coordinate federal math and 
science education programs, and in particular the role of the Academic 
Competitiveness Council in this important task. With over a dozen 
Federal agencies operating math and science education programs under 
the jurisdiction of multiple Congressional committees, it will come as 
no surprise to the Members of this Committee that the federal 
government has not had a coordinated approach to math and science 
education that ensures minimal duplication, maximum coordination, and 
rigorous and consistent standards of evaluation. For this reason, an 
important part of the President's American Competitiveness Initiative 
(ACI) is taking a close look at existing efforts and resources, 
figuring out what works and what doesn't, and developing 
recommendations to ensure that future investments support programs and 
strategies with the greatest promise for success.
    Our budget proposal for the ACI includes a $5 million request for 
fiscal year 2007 to help improve the evaluation of federal math and 
science programs that focus on elementary and secondary education, with 
an emphasis on identifying programs that have proven effective and 
should be taken to national scale. Shortly after we announced this 
proposal, Congress created the Academic Competitiveness Council, 
chaired by the Secretary of Education, which is charged with the 
related, if broader, task of identifying federal math and science 
programs, determining their effectiveness, and recommending ways to 
integrate and coordinate these programs.
    With these developments in mind, I would like to take a few minutes 
to describe the context for the Council, which is part of our overall 
effort to further strengthen American competitiveness in the global 
economy of the 21st century through the President's American 
Competitiveness Initiative.
    Let me begin by acknowledging the work this Committee has already 
done on the President's Initiative in winning House approval of the 
College Access and Opportunity Act. As you know, this Act included an 
amendment sponsored by Congresswoman Cathy McMorris that helps advance 
the President's ACI proposals on Advanced Placement, Adjunct Teacher 
Corps and critical foreign languages. On behalf of the Administration, 
I want to commend Representative McMorris and the other Members of this 
Committee who worked on this amendment. We look forward to working with 
you and the Members of the Senate to move this important bill forward.

Innovation is the Key to Our Prosperity
    If you think back over the past century, the world has made truly 
astounding progress in science, technology, engineering, and 
mathematics. And in virtually every field--ranging from agriculture, 
transportation, and energy to medicine, communications, and computers--
American innovation has led the way. More than any country on earth, 
our economic system rewards the ambition, imagination, and hard work 
that generate new ideas and new inventions.
    But another key to innovation is education, and I don't think it's 
a coincidence that the world leader in technology, with just 6 percent 
of the world's population, continues to graduate more than one-fifth of 
the world's doctorates in science and engineering. Or that 38 of the 
world's 50 leading research institutions are in the United States.
    At the same time, there is no doubt that the world is catching up. 
The spread of political freedom across the globe with the end of the 
Cold War, combined with the communications revolution brought by the 
Internet, have quickened the pace of innovation and dramatically 
increased global economic competition. As Commerce Secretary Carlos 
Gutierrez has said to me, ``We've won the Cold War. Capitalism 
prevailed, and we have three billion more competitors. Now we just need 
to run faster!''
    Increased global competition benefits both the United States and 
the world. But it does present new challenges. Evidence of these new 
challenges is not hard to find. In 2005, a majority of the top 10 
recipients of patents from the U.S. Patent and Trademark Office were 
foreign-owned companies. In addition, as other countries expand their 
university infrastructure and graduate programs, America's share of the 
world's science and engineering doctorates could fall from 22 to 15 
percent by 2010.
    Moving further down the educational pipeline into our elementary 
and secondary schools, the U.S. needs to do better. Even though the 
1983 Nation At Risk report recommended a minimum of three years of math 
and three years of science for all high school students, today just 22 
States and the District of Columbia require at least this much math and 
science of their graduating seniors. And there are plenty of data 
suggesting that we are paying a high price for this delay in putting a 
stronger emphasis on math and science in our schools.
    Nearly half of our 17-year-olds do not score at the Basic level on 
the National Assessment of Educational Progress--the minimum level of 
math skills required to apply for a production associate's job at a 
modern automobile plant. American 15-year-olds ranked 24th out of 29 
developed nations in mathematics literacy and problem-solving on the 
most recent Program for International Student Assessment test. And just 
7 percent of America's 4th- and 8th-graders reached the Advanced level 
on the 2003 Trends in International Math and Science Study (TIMSS). By 
comparison, 38 percent of Singapore's 4th-graders and 44 percent of its 
8th-graders scored at the Advanced level on TIMSS. Our students are not 
just failing to keep up with their international peers; they also are 
not getting the preparation they need to succeed in the workforce or in 
our colleges and universities. Less than half of our high school 
graduates are ready for college-level math and science.
    These data make a strong case that if we want to maintain our 
competitive edge in the global economy, we need to take action now. As 
the U.S. Chamber of Commerce recently noted, in its State of American 
Business report describing the challenge of remaining competitive in a 
global economy, ``These are not academic questions for think tank 
futurists in ivory towers. They are 'here and now' questions that 
demand serious attention this year.''

American Competitiveness Initiative
    I believe the Chamber, the Business Roundtable, the National 
Association of Manufacturers, and others in the business community have 
got it exactly right. We need to improve math and science education 
right now, this year, so that in the future, all students have the 
skills they need to succeed in higher education and the workplace. And 
we need to ensure that all students have the skills they need to enter 
the pipeline of future scientists, engineers, and mathematicians. This 
is why President Bush has proposed his American Competitiveness 
Initiative, which includes $380 million in new funding to improve the 
quality of math and science education in our elementary and secondary 
schools, bringing the total the Department spends on math-science to 
almost $1 billion.
    Within the Department of Education, the ACI would fund several 
activities designed to strengthen math and science education from 
kindergarten through grade 12. The Math Now for Elementary School 
Students initiative would provide $125 million in competitive awards to 
implement proven practices in math instruction that focus on preparing 
students in elementary school for more rigorous courses in middle and 
high school. In particular, our proposal emphasizes the importance of 
teaching and learning algebraic concepts in elementary school, so that 
students have the foundation they need to take and pass Algebra. 
Algebra is a true ``gateway'' course for students going into 
postsecondary education, and ultimately the workforce, as demonstrated 
by Department data showing that 83 percent of students who took Algebra 
and geometry went to college within two years of high school 
graduation, while only 36 percent of students who did not take these 
critical math courses enrolled in postsecondary education.
    A companion proposal, Math Now for Middle School Students, would 
focus $125 million on identifying and implementing research-based 
interventions for middle school students who have fallen behind in 
mathematics. This competitive grant initiative is similar to the 
Striving Readers program, and reflects the President's determination 
that struggling students receive the extra help they need to succeed in 
math.
    Both Math Now proposals would be informed by the work of the 
National Mathematics Advisory Panel, which President Bush established 
through an Executive Order signed two weeks ago, on April 18, 2006. The 
Panel will work to identify research-based principles, practices, and 
components of effective mathematics instruction, and its 
recommendations will be a key consideration in making awards under the 
Math Now proposals. In addition, our 2007 request includes $10 million 
to help disseminate the Panel's findings and put its recommendations to 
work in K-12 classrooms nationwide.

Advanced Placement
    At the high school level, the key ACI proposal is $90 million in 
new funding to expand teacher training under the Advanced Placement 
Incentive program, with an emphasis on AP instruction in math, science, 
and critical foreign languages. In combination with State and private 
matching funds, the proposal would train 70,000 teachers over the next 
five years to teach math, science, and critical foreign languages in AP 
and International Baccalaureate (IB) programs. New awards would be 
targeted to schools with high concentrations of low-income students 
that otherwise typically do not offer AP or IB courses, helping these 
schools to train the next generation for the global economy of the 21st 
century.
    The potential impact of expanded AP and IB offerings is 
demonstrated by a College Board study of students whose scores on the 
Preliminary SAT (PSAT) suggest they have the potential of earning a 3, 
4, or 5, which is generally considered a ``passing score,'' on an AP 
exam if they had the opportunity to take one. These data suggest that 
the number of students in Tennessee who would be likely to pass AP 
tests in subjects like Calculus, Chemistry, Physics, and Biology is 5 
to 10 times greater than the number of students currently achieving 
passing grades in these subjects. This is why, for example, the College 
Board estimates that in 2004 there were nearly 500,000 high school 
students whose PSAT scores indicated that they were ready for AP 
Calculus but who did not take the course for whatever reason.
    This is strong evidence that the President's AP proposal could help 
significantly increase the number and percentage of high school 
graduates who not only are prepared for college-level math and science, 
but also have already passed college-level exams in high school. Our 
long-term goal is to increase the number of students taking AP-IB exams 
in math, science, and critical foreign languages from 380,000 today to 
1.5 million in 2012, and to triple the number of students passing these 
tests to 700,000 by 2012.
    Another ACI proposal that would help strengthen math and science 
education in our high schools is the request for $25 million to create 
an Adjunct Teacher Corps. This initiative would encourage experienced 
professionals with subject-matter expertise, particularly in math and 
science, to teach in secondary schools through such arrangements as 
part-time instruction, teaching while on leave from their regular jobs, 
or providing instruction online. There is no question that there is 
tremendous demand from schools for the kind of expertise that could be 
made available immediately through the Adjunct Teacher Corps. 
Department data show, for example, that nearly two-thirds of all school 
districts report that recruiting qualified science teachers is a 
significant challenge, and over 90 percent of districts with high 
percentages of minority students reported difficulty in attracting 
highly qualified applicants in math and science.

Focusing Existing Resources on the Competitivenss Challenge
    In addition to these new activities, a key goal of the ACI is to 
use existing resources more effectively to help fill the pipeline of 
teachers and researchers in science, technology, engineering, and 
mathematics that we need to maintain America's competitive position in 
the technology-driven global economy. We know from last fall's report 
by the Government Accountability Office that estimates we have 13 
different civilian government agencies spending about $2.8 billion on 
207 different programs for math and science education. I think we all 
would agree that we should look closely at the effectiveness of all of 
these programs, and that is exactly what the Academic Competitiveness 
Council will do.
    On February 8, President Bush signed into law the Deficit Reduction 
Act of 2006, which authorized the Academic Competitiveness Council (the 
Council) for the purpose of evaluating and coordinating federal math 
and science education programs. The Council is chaired by Secretary 
Spellings, and includes officials from the major federal agencies that 
fund math and science education programs.
    The Council is charged with identifying all federal programs that 
focus on math or science education, as well as the target populations 
served by those programs; assessing the effectiveness of these 
programs; and recommending ways to integrate and coordinate overlapping 
or duplicative activities.
    Secretary Spellings responded quickly to this legislative mandate, 
and the Council held its first meeting on March 6, 2006. Initial 
activities include creating a broad inventory of math and science 
education programs across the federal government. This effort will 
include all federal agencies, as well as verification of program and 
funding information by the Office of Management and Budget. A Council 
working group, composed of program-level agency representatives, began 
meeting in April.
    One early Council decision involves the recognition that there can 
be no single approach to evaluating the diverse types of math and 
science programs administered by the various agencies. Different types 
of programs, with different goals and target populations, may require 
different evaluation designs. Experts from the Department's Institute 
of Education Sciences, together with representatives from the Council 
on Excellence in Government, will work with agency representatives to 
identify effective evaluation strategies and to determine common 
metrics that may enable comparisons across programs.
    The work of the Council is well started, then, and we expect to 
transmit a report of its findings, along with recommendations, to the 
Congress early next year, as required by the authorizing statute.

Conclusion
    In conclusion, we believe the President's American Competitiveness 
Initiative is well designed to jumpstart improvement in math and 
science education through a combination of targeted new initiatives and 
more effective use of existing program resources. The ACI represents a 
comprehensive, measured approach to improving math and science 
education in our public schools and building a competitive workforce 
for our 21st century economy. It would draw on proven instructional 
methods to prepare elementary school students for more rigorous courses 
in middle and high school, help students who have fallen behind in 
middle school to catch up, raise expectations for high school students 
to take and pass challenging AP and IB courses, and expand the use of 
rigorous evaluations so that future investments can be targeted on 
activities that will strengthen the impact of the federal math and 
science education activities.
    The Academic Competitiveness Council is an important component of 
this Initiative. The Council will tell us more about the efficacy of 
our current programs while giving us insight into how we move forward 
with the President's key Competitiveness proposals.
    Thank you, and I will be happy to answer any questions.
                                 ______
                                 
    Mr. Boustany. Thank you. Ms. Ashby, you may now begin your 
testimony.

    STATEMENT OF CORNELIA M. ASHBY, DIRECTOR OF EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Ashby. Thank you. Mr. Chairman, and members of the 
committee. Thank you for inviting me here today to discuss to 
discuss STEM issues. My testimony will focus on trends and 
degree employment in STEM fields and Federal education programs 
intended to support study and employment in these fields. My 
comments are based primarily on our October, 2005 STEM report. 
We have, however, updated information on degree attainment and 
Federal legislation.
    While post-secondary STEM enrollment and degree attainment 
have increased over the past decade, the proportion of students 
obtaining degrees in STEM fields has fallen from about 32 
percent in academic year 1994-95 to about 27 percent in 
academic year 2003-2004. Stated another way, over the 10-year 
period, the number of STEM graduates, the solid line on the 
graphic, has changed less than the number of non-STEM 
graduates. This relationship is shown in the graphic by the 
relative slopes of the STEM and non-STEM lines.
    Despite the overall increase, degree attainment in several 
STEM fields, including the biological sciences, the physical 
sciences, engineering and technology-related fields, declined 
over the same period, particularly at the doctoral level. Also 
the proportion of domestic minorities enrolled in STEM fields 
increased at the bachelor's level, but it did not change at the 
master's or doctoral level, and international students 
continued to earn about one-third or more of the degrees at 
both the master's and doctoral levels, engineering, 
mathematics, computer science and the physical sciences.
    From 1994 to 2003, overall employment in STEM fields 
increased by an estimated 23 percent, compared to an estimated 
17 percent in non-STEM fields. However, in certain STEM fields, 
including engineering, the number of employees did not increase 
significantly. While the estimated number of women employed in 
STEM fields increased, there was not a significant change in 
the percentage they comprised.
    The number of African-Americans and Hispanic Americans 
employed in the STEM fields increased, but they remained 
underrepresented relative to their numbers in the civilian 
labor force. The number of foreign workers declined in STEM 
fields, due in part to difficulties with the U.S. visa system.
    Further, according to a 2006 National Science Foundation 
report, about two-thirds of employees with degrees in science 
or engineering were employed in fields only somewhat or not at 
all related to their degree. As shown in the second graphic, 
the Federal Government spent approximately $2.8 billion in 
fiscal year 2004 to fund seven programs designed to increase 
the number of students in STEM fields and employees in STEM 
occupations, but little is known about the extent to which most 
STEM programs are achieving their designed results.
    Thirteen Federal civilian agencies operated these programs, 
with two agencies, the National Institutes of Health and the 
National Science Foundation, administering nearly half of the 
programs. Most of the STEM programs either provided financial 
support to individuals, particularly to students and scholars, 
or equipment, building or other infrastructure support to 
institutions.
    Most STEM programs were funded at $5 million or less, but 
13 programs were funded at more than $50 million. Only half of 
these programs had been evaluated or had evaluations under way, 
and coordination amongst STEM education programs was limited.
    However, in 2003, the National Science and Technology 
Council formed a group to address STEM education and workforce 
policy issues across Federal agencies. In addition, since our 
report was issued in October 2005, Congress established 
National Science and Mathematics Access to Retain Talent, SMART 
grants, to encourage students from low-income families to 
enroll in STEM fields and an Academic Competitiveness Council 
to identify, evaluate and coordinate Federal STEM programs.
    In conclusion, we have two observations. First, given some 
of the trends in STEM degree attainment and employment, it is 
uncertain whether the number of STEM participants will be 
sufficient to meet future needs.
    However, women now outnumber men in college enrollment, and 
minority students are enrolling in post-secondary education at 
record high levels. Although historically underrepresented in 
STEM fields, these populations provide a valuable source for 
future STEM participation.
    Second, it is important to know the extent to which 
existing STEM programs are appropriately targeted and making 
the best use of Federal resources. In other words, these 
programs must be evaluated.
    In light of the Nation's large and growing long-term fiscal 
imbalance, information about the effectiveness of these 
programs can help policymakers and program managers in 
coordinating and improving existing programs as well as 
determining areas of unmet need.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Ashby follows:]

     Prepared Statement of Cornelia M. Ashby, Director, Education, 
 Workforce, and Income Security Issues, U.S. Government Accountability 
                                 Office

    Mr. Chairman and Members of the Committee: Thank you for inviting 
me here today to discuss U.S. trends in the fields of science, 
technology, engineering, and mathematics (STEM) in relation to the 
changing domestic and global economies. The health of the U.S. economy 
is directly tied to our science and technology industries, and the U.S. 
is a world leader in scientific and technological innovation. Since 
1995, for example, the U.S. has generated the largest share of high-
technology manufacturing output of any country in the world. Concerns 
have been raised, however, about the nation's ability to maintain its 
technological competitive advantage, especially in light of other 
nations' investments in their own research infrastructures, the aging 
and changing U.S. workforce, and the fiscal challenges facing the 
nation. From 1990 to 2003, research and development expenditures 
outside the U.S. have more than doubled, from about $225 billion to 
over $500 billion. According to the Census Bureau, the median age of 
the U.S. population in 2004 was the highest it had ever been, and the 
growth of the labor force is expected to slow considerably, becoming 
negligible by 2050. Further, as the U.S. becomes a more diverse 
society, minorities, in addition to women, will continue to represent a 
continuously increasing share of the workforce, yet women and 
minorities have tended to be underrepresented in STEM education 
programs and career fields. These factors, concurrent with the nation's 
large and growing long-term fiscal imbalance, present significant and 
difficult challenges for policymakers as they tackle how best to ensure 
that our nation can continue to compete in the global marketplace.
    My testimony today will focus on three key issues: (1) trends in 
degree attainment in STEM and non-STEM related fields and factors that 
may influence these trends, (2) trends in the levels of employment in 
STEM and non-STEM related fields and factors that may influence these 
trends, and (3) federal education programs intended to support the 
study of and employment in STEM-related fields. My comments are based 
on the findings from our October 2005 report, Higher Education: Federal 
Science, Technology, Engineering, and Mathematics Programs and Related 
Trends.\1\ Those findings were based on our review and analysis of data 
from a variety of sources. For that report we (1) analyzed survey 
responses from 13 federal departments and agencies with STEM education 
programs; \2\ (2) analyzed data on students and graduates from the 
Department of Education's (Education) National Center for Education 
Statistics (NCES) and on employees from the Department of Labor's 
(Labor) Bureau of Labor Statistics (BLS); (3) interviewed educators and 
administrators at eight colleges and universities, federal agency 
officials, and representatives from associations and education 
organizations; (4) conducted interviews via e-mail with 31 students 
from five universities we visited; and (5) reviewed reports on various 
topics related to STEM education and occupations.\3\ For this 
testimony, we provide updated information concerning the number of 
graduates in STEM and non-STEM fields as well as congressional 
legislation related to STEM education programs. Our work was conducted 
in accordance with generally accepted government auditing standards.
    In summary, our findings are as follows:
    <bullet> While postsecondary enrollment has increased over the past 
decade, the proportion of students obtaining degrees in STEM fields has 
fallen. In academic year 1994-1995, about 519,000 students obtained 
STEM degrees, about 32 percent of all degrees awarded. More students--
approximately 578,000--obtained STEM degrees in academic year 2003-
2004, but such degrees accounted for only 27 percent of those awarded. 
While the number of degrees obtained in some STEM fields increased, the 
number of degrees obtained in engineering, biological science, and 
certain technical fields declined. Further, despite increases in the 
overall enrollment and degree attainment by women and minorities at the 
graduate level, the number of graduate degrees conferred fell in 
several STEM-related fields in academic year 2003-2004. College and 
university officials and students cited sub-par teacher quality at the 
high school and college levels, poor high-school preparation, more 
rigorous and expensive degree requirements for STEM majors, and lower 
pay of STEM occupations relative to such fields as law and business as 
factors that discouraged students from pursuing degrees in STEM fields. 
Suggestions to encourage more enrollment in STEM fields include 
increased outreach at the kindergarten through 12th grade level, 
increased mentoring, and a greater federal presence.
    <bullet> Coinciding with the spread of the Internet and the 
personal computer, the past decade has seen an increase in the overall 
number of STEM employees, particularly in mathematics and computer 
science. From 1994 to 2003, overall employment in STEM fields increased 
by an estimated 23 percent, compared to an estimated 17 percent 
increase in non-STEM fields. Mathematics and computer science showed 
the highest increase in STEM related employment--estimated at 78 
percent--while employment in science-related fields increased an 
estimated 20 percent. However, in certain STEM fields, including 
engineering, the number of employees did not increase significantly 
over the 1994 to 2003 period. Further, while the estimated number of 
women employed in STEM fields increased, there was not a significant 
change in the percentage they comprised. While the number of African 
Americans and Hispanic-Americans employed in STEM fields increased from 
1994 to 2003, they remained underrepresented relative to their numbers 
in the civilian labor force. Although foreign workers have filled more 
than 100,000 positions annually, many in STEM fields, through the H-1B 
visa program, employment levels declined in 2002 and 2003 after several 
years of increases.\4\ Key factors affecting STEM employment decisions 
include mentoring for women and minorities and opportunities abroad for 
foreign employees.
    <bullet> The federal government spent approximately $2.8 billion in 
fiscal year 2004 to fund over 200 programs designed to increase the 
numbers of students in STEM fields and employees in STEM occupations 
and to improve related educational programs. Thirteen federal civilian 
agencies operated these programs, and most programs either provided 
financial support to individuals, particularly to students and 
scholars, or equipment, building, and other infrastructure support to 
institutions. The funding reported for individual STEM education 
programs varied significantly, from $4,000 for a U.S. Department of 
Agriculture-sponsored program to $547 million for a National Institutes 
of Health (NIH) grant program. However, only half of these programs had 
been evaluated or had evaluations underway, and coordination among STEM 
education programs was limited. As we note in our 2005 report, it is 
important to know the extent to which existing STEM education programs 
target the right people and the right areas and make the best use of 
available resources before expanding federal support.
    Since our report was issued in October 2005, several initiatives to 
improve federal support have taken place. For example, Congress 
established National Science and Mathematics Access to Retain Talent 
(SMART) Grants to encourage students from low-income families to enroll 
in STEM fields and foreign languages critical to the national security 
of the United States. In addition, Congress established an Academic 
Competitiveness Council, chaired by the Secretary of Education, to 
identify, evaluate, coordinate, and improve federal STEM programs. 
Further, according to Education, the department plans to determine 
which federal programs work best for students and how to use taxpayers' 
dollars more efficiently, as well has how to align programs with the 
accountability principles of the No Child Left Behind Act of 2001 
(NCLBA).\5\

Background
    STEM fields include a wide range of disciplines and occupations, 
including agriculture, physics, psychology, medical technology, and 
automotive engineering. Many of these fields require completion of 
advanced courses in mathematics or science, subjects that are first 
introduced and developed at the kindergarten through 12th grade level. 
The federal government, universities and colleges, and other entities 
have taken steps to help improve achievement in these and other 
subjects through such actions as enforcement of NCLBA, which addresses 
both student and teacher performance at the elementary and secondary 
school levels, and implementation of programs to increase the numbers 
of women, minorities, and students with disadvantaged backgrounds in 
the STEM fields at postsecondary school levels and later in employment.
    The participation of domestic students in STEM fields--and in 
higher education more generally--is affected both by the economy and by 
demographic changes in the U.S. population. Enrollment in higher 
education has declined with upturns in the economy because of the 
increased opportunity costs of going to school when relatively high 
wages are available. The choice between academic programs is also 
affected by the wages expected to be earned after obtaining a degree. 
Demographic trends affect STEM fields because different races and 
ethnicities have had different enrollment rates, and their 
representation in the population is changing. In particular, STEM 
fields have had a relatively high proportion of white or Asian males, 
but the proportion of other minorities enrolled in the nation's public 
schools, particularly Hispanics, has almost doubled since 1972. 
Furthermore, as of 2002, American Indians, Asians, African Americans, 
Hispanics, and Pacific Islanders comprised 29 percent of all college 
students.
    Students and employees from foreign countries have pursued STEM 
degrees and worked in STEM occupations in the United States as well. To 
do so, these students and employees must obtain education or employment 
visas.\6\ Visas may not be issued to students for a number of reasons, 
including concerns that the visa applicant may engage in the illegal 
transfer of sensitive technology. Many foreign workers enter the United 
States annually through the H-1B visa program, which assists U.S. 
employers in temporarily filling specialty occupations. Employed 
workers may stay in the United States on an H-1B visa for up to 6 
years, and the current cap on the number of H-1B visas that can be 
granted is 65,000. The law exempts certain workers from this cap, 
including those in specified positions or holding a master's degree or 
higher from a U.S. institution.
    The federal government also plays a role in helping coordinate 
federal science and technology initiatives. The National Science and 
Technology Council (NSTC) was established in 1993 and is the principal 
means for the Administration to coordinate science and technology 
policies. One objective of NSTC is to establish clear national goals 
for federal science and technology investments in areas ranging from 
information technologies and health research to improving 
transportation systems and strengthening fundamental research.

The Proportion of Students Obtaining Degrees in STEM Fields Has Fallen, 
        and Teacher Quality and High-School Preparation Were Cited as 
        Influential Factors
    From the 1994-1995 academic year to the 2003-2004 academic year, 
the number of graduates with STEM degrees increased, but the proportion 
of students obtaining degrees in STEM fields fell. Teacher quality, 
academic preparation, collegiate degree requirements, and the pay for 
employment in STEM fields were cited by university officials and 
Education as factors affecting the pursuit of degrees in these fields.

Total Number of Graduates With STEM Degrees Increased, but Numbers 
        Decreased in Some Fields, and Proportions of Minority Graduates 
        at the Master's and Doctoral Levels Did Not Change
    The number of graduates with degrees in STEM fields increased from 
approximately 519,000 to approximately 578,000 from the 1994-1995 
academic year to the 2003-2004 academic year. However, during this same 
period, the number of graduates with degrees in non-STEM fields 
increased from about 1.1 million to 1.5 million. Thus, the percentage 
of students with STEM degrees decreased from about 32 percent to about 
27 percent of total graduates. The largest increases at the bachelor's 
and master's levels were in mathematics and the computer sciences, and 
the largest increases at the doctoral level were in psychology. 
However, the overall number of students earning degrees in engineering 
decreased in this period, and the number of students earning doctoral 
degrees in the physical sciences and bachelor's degrees in technology-
related fields, as well as several other fields also declined. Figure 1 
shows the number of graduates for STEM and non-STEM fields in the 1994-
1995 through 2003-2004 academic years.

 FIGURE 1: NUMBER OF GRADUATES IN STEM AND NON-STEM FIELDS, 1994-1995 
                    THROUGH 2003-2004 ACADEMIC YEARS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO calculations based upon Integrated Postsecondary 
Education Data system data.

    Note: Information for academic year 1998-1999 was not reported by 
IPEDS.

    From the 1994-1995 academic year to the 2003-2004 academic year, 
the proportion of women earning degrees in STEM fields increased at the 
bachelor's, master's, and doctoral levels, and the proportion of 
domestic minorities increased at the bachelor's level. Conversely, the 
total number of men graduates decreased, and the proportion of men 
graduates declined in the majority of STEM fields at all educational 
levels in this same period. However, men continued to constitute over 
50 percent of the graduates in most STEM fields. The proportion of 
domestic minorities increased at the bachelor's level but did not 
change at the master's or doctoral level. In the 1994-1995 and 2003-
2004 academic years, international students earned about one-third or 
more of the degrees at both the master's and doctoral levels in 
engineering, math and computer science, and the physical sciences.

Teacher Quality, Mathematics and Science Preparation, and Other Factors 
        Were Cited as Key Influences on Domestic Students' STEM 
        Participation Decisions
    University officials told us and researchers reported that the 
quality of teachers in kindergarten through 12th grades and the levels 
of mathematics and science courses completed during high school 
affected students' success in and decisions about pursuing STEM fields. 
University officials said that some teachers were unqualified and 
unable to impart the subject matter, causing students to lose interest 
in mathematics and science. In 2002, Education reported that, in the 
1999-2000 school year, 45 percent of the high school students enrolled 
in biology/life science classes and approximately 30 percent of those 
enrolled in mathematics, English, and social science classes were 
instructed by teachers without a major, minor, or certification in 
these subjects--commonly referred to as ``out-of-field'' teachers.\7\ 
Also, states reported that the problem of underprepared teachers was 
worse on average in districts that serve large proportions of high-
poverty children.
    In addition to teacher quality, students' high school preparation 
in mathematics and science was cited by university officials and 
researchers as a factor that influenced students' participation and 
success in the STEM fields. For example, university officials said 
that, because many students had not taken higher level mathematics and 
science courses such as calculus and physics in high school, they were 
immediately behind other students. A study of several hundred students 
who had left the STEM fields reported that about 40 percent of those 
college students who left the science fields reported some problems 
related to high school science preparation.\8\
    Several other factors were cited by university officials, students, 
and others as influencing decisions about participation in STEM fields. 
These factors included the relatively low pay in STEM occupations, 
additional tuition costs to obtain STEM degrees, and the availability 
of mentoring, especially for women and minorities in the STEM fields. 
For example, officials from five universities told us that low pay in 
STEM occupations relative to other fields such as law and business 
dissuaded students from pursuing STEM degrees. Also, in a study that 
solicited the views of college students who left the STEM fields as 
well as those who continued to pursue STEM degrees, researchers found 
that students experienced greater financial difficulties in obtaining 
their degrees because of the extra time needed to obtain degrees in 
certain STEM fields.\9\
    University officials, students, and other organizations suggested a 
number of steps that could be taken to encourage more participation in 
the STEM fields. University officials and students suggested more 
outreach, especially to women and minorities from kindergarten through 
the 12th grade. One organization, Building Engineering and Science 
Talent (BEST), suggested that research universities increase their 
presence in pre-kindergarten through 12th grade mathematics and science 
education in order to strengthen domestic students' interests and 
abilities. In addition, the Council of Graduate Schools called for a 
renewed commitment to graduate education by the federal government 
through actions such as providing funds to support students trained at 
the doctoral level in the STEM fields and expanding participation in 
doctoral study in selected fields through graduate support awarded 
competitively to universities across the country. University officials 
suggested that the federal government could enhance its role in STEM 
education by providing more effective leadership through developing and 
implementing a national agenda for STEM education and increasing 
federal funding for academic research.

STEM Employment Rose in Math and Science but No Evidence of Increase in 
        Engineering or Technology
    Although the total number of STEM employees increased from 1994 to 
2003, particularly in mathematics and computer science, there was no 
evidence that the number of employees in engineering and technology-
related fields did. University officials, researchers, and others cited 
the availability of mentors as having a large influence on the decision 
to enter STEM fields and noted that many students with STEM degrees 
find employment in non-STEM fields. The number of foreign workers 
declined in STEM fields, due in part to declines in enrollment in U.S. 
programs resulting from difficulties with the U.S. visa system. Key 
factors affecting STEM employment decisions include the availability of 
mentors for women and minorities and opportunities abroad for foreign 
workers.

STEM Employment Rose Relative to Non-STEM Employment, but in STEM 
        Fields the Proportion of Women Remained About the Same, 
        Minorities Continued to be Underrepresented, and the Number of 
        Foreign Workers Declined
    From 1994 to 2003, employment in STEM fields increased from an 
estimated 7.2 million to an estimated 8.9 million--representing a 23 
percent increase, as compared to a 17 percent increase in non-STEM 
fields. While the total number of STEM employees increased, this 
increase varied across STEM fields. Coinciding with the spread of the 
Internet and the personal computer, employment increased by an 
estimated 78 percent in the mathematics/computer sciences fields and by 
an estimated 20 percent in the sciences. There was no evidence that the 
number of employees in the engineering and technology-related fields 
increased. Further, a 2006 National Science Foundation report found 
that about two-thirds of employees with degrees in science or 
engineering were employed in fields somewhat or not at all related to 
their degree.\10\ Figure 2 shows the estimated number of employees in 
STEM fields.

 FIGURE 2: ESTIMATED NUMBERS OF EMPLOYEES IN STEM FIELDS FROM CALENDAR 
                        YEARS 1994 THROUGH 2003

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Note: Estimated numbers of employees have confidence intervals of 
within +/- 9 percent of the estimate itself.

    Women and minorities employed in STEM fields increased between 1994 
and 2003, and the number of foreign workers declined. While the 
estimated number of women employees in STEM fields increased from about 
2.7 million to about 3.5 million in this period, this did not result in 
a change in the proportion of women employees in the STEM fields 
relative to men. Specifically, women comprised an estimated 38 percent 
of the employees in STEM fields in 1994 and an estimated 39 percent in 
2003, compared to 46 and 47 percent of the civilian labor force in 1994 
and 2003, respectively. The estimated number of minorities employed in 
the STEM fields as well as the proportion of total STEM employees they 
constituted increased, but African American and Hispanic employees 
remained underrepresented relative to their percentages in the civilian 
labor force. For example, in 2003, Hispanic employees comprised an 
estimated 10 percent of STEM employees compared to about 13 percent of 
the civilian labor force. Foreign workers traditionally had filled 
hundreds of thousands of positions, many in STEM fields, through the H-
1B visa program. In recent years, these numbers have declined in 
certain fields. For example, the number of approvals for systems 
analysis/programming positions decreased from about 163,000 in 2001 to 
about 56,000 in 2002.\11\

Key Factors Affecting STEM Employment Decisions Include Mentoring for 
        Women and Minorities and Opportunities Abroad for Foreign 
        Employees
    University officials and congressional commissions noted the 
important role that mentors play in encouraging employment in STEM 
fields and that this was particularly important for women and 
minorities.\12\ One professor said that mentors helped students by 
advising them on the best track to follow for obtaining their degrees 
and achieving professional goals. In September 2000, a congressional 
commission reported that women were adversely affected throughout the 
STEM education pipeline and career path by a lack of role models and 
mentors.\13\
    University officials and education policy experts told us that 
competition from other countries in educational or work opportunities 
and the more strict U.S. visa process since September 11, 2001, 
affected international employee decisions about studying and working in 
the United States. For example, university officials told us that 
students from several countries, including China and India, were being 
recruited by universities and employers both in their own countries and 
other countries as well as the United States. They also told us that 
they were also influenced by the perceived unwelcoming attitude of 
Americans and the complex visa process.
    GAO has reported on several aspects of the visa process and has 
made several recommendations for improving federal management of the 
process. In 2002, we cited the need for a clear policy on how to 
balance national security concerns with the desire to facilitate 
legitimate travel when issuing visas.\14\ In 2005, we reported a 
significant decline in certain visa processing times and in the number 
of cases pending more than 60 days, and we also reported that in some 
cases science students and scholars can obtain a visa within 24 
hours.\15\ However, in 2006, we found that new policies and procedures 
since the September 11 attacks to strengthen the security of the visa 
process and other factors have resulted in applicants facing extensive 
wait times for visas at some consular posts.\16\

More Than 200 Federal Education Programs Exist to Promote STEM Careers, 
        but Evaluation and Coordination Are Lacking
    Officials from 13 federal civilian agencies reported spending about 
$2.8 billion in fiscal year 2004 for 207 education programs designed to 
support STEM fields, but they reported little about the effectiveness 
of these programs.\17\ Although evaluations had been done or were under 
way for about half of the programs, little is known about the extent to 
which most STEM programs are achieving their desired results. 
Furthermore, coordination among the federal STEM education programs has 
been limited. However, in 2003, the National Science and Technology 
Council formed a subcommittee to address STEM education and workforce 
policy issues across federal agencies, and Congress has introduced new 
STEM initiatives as well.

Federal Civilian Agencies Reported Spending Billions for Over 200 STEM 
        Education Programs in Fiscal Year 2004 and That Evaluations 
        Were Completed or Under Way for About Half
    Officials from 13 federal civilian agencies reported that 
approximately $2.8 billion was spent in fiscal year 2004 on 207 STEM 
education programs.\18\ The funding levels for STEM education programs 
among the agencies ranged from about $998 million for the National 
Institutes of Health (NIH) to about $4.7 million for the Department of 
Homeland Security, and the numbers of programs ranged from 51 to 1 per 
agency, with two agencies--NIH and the National Science Foundation--
administering nearly half of the programs. Most STEM education programs 
were funded at $5 million or less, but 13 programs were funded at more 
than $50 million, and the funding reported for individual programs 
varied significantly. For example, one USDA-sponsored scholarship 
program for U.S. citizens seeking bachelor's degrees at Hispanic-
serving institutions was funded at $4,000, and one NIH grant program 
designed to develop and enhance research training opportunities was 
funded at about $547 million. Figure 3 shows the funding and number of 
STEM education programs by federal civilian agency.

FIGURE 3: FEDERAL STEM EDUCATION PROGRAMS AND FUNDING BY AGENCY, FISCAL 
                               YEAR 2004

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: GAO survey responses from 13 federal agencies.

    According to the agency responses to GAO's survey, most STEM 
education programs had multiple goals, and one goal was to attract 
students or graduates to pursue STEM degrees and occupations. Many STEM 
programs also were designed to provide student research opportunities, 
provide support to educational institutions, or improve teacher 
training. In order to achieve these goals, many of the programs were 
targeted at multiple groups and provided financial assistance to 
multiple beneficiaries. STEM education programs most frequently 
provided financial support for students or scholars, and several 
programs provided assistance for teacher and faculty development as 
well. U.S. citizenship or permanent residence was required of the 
majority of programs. Table 1 presents the most frequent program goals 
and types of assistance provided.

  TABLE 1: MOST FREQUENT FEDERAL PROGRAM GOALS AND TYPES OF ASSISTANCE
                                PROVIDED
------------------------------------------------------------------------
  Most frequent program goals (in     Most frequent types of assistance
         descending order)                  (in descending order)
------------------------------------------------------------------------
<bullet> Attract students to pursue  <bullet> Financial support for
 degrees (2-year through Ph.D.)       students or scholars
<bullet> Attract graduates to        <bullet> Support for teacher and
 pursue careers in STEM fields        faculty development
<bullet> Attract and prepare         <bullet> Institutional support to
 students at any education level to   improve educational quality
 pursue coursework in STEM areas     <bullet> Institutional physical
<bullet> Provide growth and           infrastructure support
 research opportunities for
 undergraduate and graduate
 students in STEM fields
<bullet> Improve or expand the
 capacity of institutions to
 promote or foster STEM fields
<bullet> Improve teacher education
 in STEM areas
------------------------------------------------------------------------
Source: GAO survey responses from 13 federal agencies.

Note: Information on program goals and types of assistance was not
  provided by the Department of Defense.

    Agency officials reported that evaluations--which could play an 
important role in improving program operations and ensuring an 
efficient use of federal resources--had been completed or were under 
way for about half of the STEM education programs. However, evaluations 
had not been done for over 70 programs that were started before fiscal 
year 2002, including several that had been operating for over 15 years. 
For the remaining over 30 programs that were initially funded in fiscal 
year 2002 or later, it may have been too soon to expect evaluations.

Federal Coordination Has Been Limited, but a Federal Group Was 
        Established in 2003 to Help Coordinate STEM Education Programs 
        Among Federal Agencies
    Coordination of federal STEM education programs has been limited. 
In January 2003, the National Science and Technology Council's (NSTC) 
Committee on Science (COS) established a subcommittee on education and 
workforce development. According to its charter, the subcommittee is to 
address education and workforce policy issues and research and 
development efforts that focus on STEM education issues at all levels, 
as well as current and projected STEM workforce needs, trends, and 
issues. The subcommittee has working groups on (1) human capacity in 
STEM areas, (2) minority programs, (3) effective practices for 
assessing federal efforts, and (4) issues affecting graduate and post-
doctoral researchers.
    NSTC reported that as of June 2005 the subcommittee had a number of 
accomplishments and had other projects under way related to attracting 
students to STEM fields. For example, it had surveyed federal agency 
education programs designed to increase the participation of women and 
underrepresented minorities in STEM studies, and it had coordinated the 
Excellence in Science, Technology, Engineering, and Mathematics 
Education Week activities, which provide an opportunity for the 
nation's schools to focus on improving mathematics and science 
education. In addition, the subcommittee is developing a Web site for 
federal educational resources in STEM fields and a set of principles 
that agencies could use in setting levels of support for graduate and 
post-doctoral fellowships and traineeships.

Congress Created New Grants to Help Needy Students Obtain STEM Degrees 
        and Established a Council to Determine the Effectiveness of 
        Federal STEM Programs and Provide Coordination
    In passing the Deficit Reduction Act of 2005,\19\ the Congress 
created a new source of grant aid for students pursuing a major in the 
physical, life, or computer sciences, mathematics, technology, 
engineering, or a foreign language considered critical to the national 
security of the United States. These National Science and Mathematics 
Access to Retain Talent Grants--or SMART Grants--provide up to $4,000 
for each of two academic years for eligible students. Eligible students 
are those who are in their third or fourth academic year of a program 
of undergraduate education at a four-year degree-granting institution, 
have maintained a cumulative grade point average of 3.0 or above, and 
meet the eligibility requirements of the federal government's need-
based Pell grant program.\20\ Education expects to provide $790 million 
in SMART Grants to over 500,000 students in academic year 2006-2007.
    Congress also established an Academic Competitiveness Council in 
passing the Deficit Reduction Act of 2005. The council is comprised of 
officials from federal agencies with responsibilities for managing 
existing federal programs that promote mathematics and science and is 
chaired by the Secretary of Education. Among the statutory duties of 
the council are to (1) identify all federal programs with a mathematics 
and science focus, (2) identify the target populations being served by 
such programs, (3) determine the effectiveness of such programs, (4) 
identify areas of overlap or duplication in such programs, and (5) 
recommend ways to efficiently integrate and coordinate such programs. 
Congress also charged the council to provide it with a report of its 
findings and recommendations by early 2007. In an April 2006 hearing 
before the House Committee on Education and the Workforce, the 
Secretary of Education testified that she and President Bush convened 
the first meeting of the council on March 6, 2006.

Concluding Observations
    While the total numbers of STEM graduates have increased, some 
fields have experienced declines, especially at the master's and 
doctoral levels. Given the trends in the numbers and percentages of 
graduates with STEM degrees--particularly advanced degrees--and recent 
developments that have influenced international students' decisions 
about pursuing degrees in the United States, it is uncertain whether 
the number of STEM graduates will be sufficient to meet future academic 
and employment needs and help the country maintain its technological 
competitive advantage. Moreover, although international graduate 
applications increased in academic year 2005-2006 for the first time in 
three years, it is too early to tell if this marks the end of declines 
in international graduate student enrollment. In terms of employment, 
despite some gains, the percentage of women in the STEM workforce has 
not changed significantly, minority employees remain underrepresented 
relative to their employment in the civilian labor force, and many 
graduates with degrees in STEM fields are not employed in STEM 
occupations. Women now outnumber men in college enrollment, and 
minority students are enrolling in record-high levels at the 
postsecondary level as well. To the extent that these populations have 
been historically underrepresented in STEM fields, they provide a yet 
untapped source of STEM participation in the future.
    To help improve the trends in the numbers of graduates and 
employees in STEM fields, university officials and others made several 
suggestions, such as increasing the federal commitment to STEM 
education programs. However, before expanding the number of federal 
programs, it is important to know the extent to which existing STEM 
education programs are appropriately targeted and making the best use 
of available federal resources--in other words, these programs must be 
evaluated--and a comprehensive evaluation of federal programs is 
currently nonexistent. Furthermore, the recent initiatives to improve 
federal coordination, such as the American Competitiveness Council, 
serve as an initial step in reducing unnecessary overlap between 
programs, not an ending point. In an era of limited financial resources 
and growing federal deficits, information about the effectiveness of 
these programs can help guide policy makers and program managers in 
coordinating and improving existing programs as well as determining 
areas in which new programs are needed.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other members of the 
Committee may have.

                                ENDNOTES

    \1\ GAO, Higher Education: Federal Science, Technology, 
Engineering, and Mathematics Programs and Related Trends, GAO-06-114 
(Washington, D.C.: October 12, 2005).
    \2\ The Department of Defense (DoD) did not submit a survey. 
According to DoD officials, DoD needed 3 months to complete the survey 
and therefore could not provide responses within the timeframes of our 
work
    \3\ For the purposes of this testimony, we will use the term 
``agency'' when referring to any of the 13 federal departments and 
agencies that responded to our survey.
    \4\ H-1B visas allow non-citizens to work in the United States.
    \5\ Pub. L. No. 107-110 (2002). NCLBA amended and reauthorized the 
Elementary and Secondary Education Act--the largest and most 
comprehensive federal education law--and focused on improving students' 
academic performance.
    \6\ There are several types of visas that authorize people to study 
and work in the United States. F visas (``student visas'') are for 
study at 2- and 4-year colleges and universities and other academic 
institutions; J visas (``exchange visitor visas'') are for people who 
will be participating in a cultural exchange program; L visas 
(``intracompany transferee visas'') are for managerial positions and 
for those with specialized skills; and M visas are for nonacademic 
study, such as at vocational and technical schools. In addition, H-1B 
visas allow non-citizens to work in the United States.
    \7\ National Center for Education Statistics, Qualifications of the 
Public School Teacher Workforce: Prevalence of Out-of-Field Teaching 
1987-88 to 1999-2000, May 2002, revised August 2004, Washington, D.C.
    \8\ The student study results are from Seymour, Elaine, and Nancy 
M. Hewitt, Talking about Leaving: Why Undergraduates Leave the 
Sciences, Westview Press, 1997, Boulder, CO.
    \9\ Ibid.
    \10\ National Science Foundation, Science and Engineering 
Indicators 2006, Volume 1, National Science Board, January 13, 2006.
    \11\ GAO, H-1B Foreign Workers: Better Tracking Needed to Help 
Determine H-1B Program's Effects on U.S. Workforce, GAO-03-883 
(Washington, D.C.: September 10, 2003).
    \12\ GAO, Gender Issues: Women's Participation in the Sciences Has 
Increased, but Agencies Need to Do More to Ensure Compliance with Title 
IX, GAO-04-639 (Washington, D.C.: July 22, 2004).
    \13\ Report of the Congressional Commission on the Advancement of 
Women and Minorities in Science, Engineering and Technology 
Development, Land of Plenty: Diversity as America's Competitive Edge in 
Science, Engineering, and Technology, September 2000.
    \14\ GAO, Border Security: Visa Process Should Be Strengthened as 
an Antiterrorism Tool, GAO-03-132NI (Washington, D.C.: October 21, 
2002).
    \15\ GAO, Border Security: Streamlined Visas Mantis Program Has 
Lowered Burden on Foreign Science Students and Scholars, but Further 
Refinements Needed, GAO-05-198 (Washington, D.C.: February 18, 2005).
    \16\ GAO, Border Security: Reassessment of Consular Resource 
Requirements Could Help Address Visa Delays, GAO-06-542T (Washington, 
D.C.: April 4, 2006).
    \17\ GAO asked agencies to include STEM and related education 
programs with one or more of the following as the primary objective: 
(1) attract and prepare students at any education level to pursue 
coursework in STEM areas, (2) attract students to pursue degrees (2-
year degrees through post-doctoral degrees) in STEM fields, (3) provide 
growth and research opportunities for college and graduate students in 
STEM fields, (4) attract graduates to pursue careers in STEM fields, 
(5) improve teacher (pre-service, in-service, and postsecondary) 
education in STEM areas, and (6) improve or expand the capacity of 
institutions to promote or foster STEM fields. The Department of 
Labor's (Labor) programs did not meet our selection criteria for STEM 
programs, and, as noted above, the Department of Defense (DoD) did not 
submit a survey.
    \18\ The program funding levels, as provided by agency officials, 
contain both actual and estimated amounts for fiscal year 2004.
    \19\ Pub. L. No. 109-171 (2006).
    \20\ The Federal Pell Grant Program promotes access to 
postsecondary education by providing need-based grants to low-income 
students.
                                 ______
                                 
    Mr. Boustany. We thank you for that testimony.
    Mr. Archey, you are now recognized.

 STATEMENT OF WILLIAM T. ARCHEY, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, AMERICAN ELECTRONICS ASSOCIATION

    Mr. Archey. Thank you very much, Mr. Chairman. This hearing 
is timely for both AEA and the high tech industry, because 2 
weeks ago today we published our annual volume called 
Cyberstates, which is a look at high tech employment, wages, 
exports, and various other data for all 50 States and 
nationally.
    I would like to just note why it is germane. First of all, 
for the year 2005, for the first time since the year 2000, the 
high tech industry actually added jobs, 61,000 jobs. Included 
in that is for the first time since also the year 2000 high 
tech manufacturing employment actually went up.
    The other thing or one of the other important data points 
in that is that this is Bureau of Labor Statistics. The 
unemployment rate for the year 2005 for electrical engineers is 
1.5 percent, and for overall engineers 2.3 percent. I would 
submit no matter what school of economics you come from that is 
probably full employment.
    I would also note that our data shows, and, again, using 
BLS data, that the average high tech salary in the United 
States pays 85 percent higher than the average private sector 
salary. In some States, by the way, such as California, it is 
106 percent differential between the average high tech salary 
and that of the rest of the private sector.
    I would like to note just a two-prong problem that is 
germane to this hearing. The first is it is obvious we do not 
have enough Americans with the proper science, math or 
engineering background, and the problem is becoming more acute 
because of what I suggest, which is the first time high tech 
companies are actually hiring. In fact, there are thousands of 
jobs out there. They are not going filled.
    The second problem that compounds the error, the 
compounding problem is that for the last 60 years one of the 
great safety valves for not having enough American workers has 
been the ability to attract the best and the brightest from 
elsewhere in the world. The post-9/11 immigration policy has 
greatly curtailed that and continues to be a problem.
    I would just note that if you were to talk to a high tech 
executive a year and a half ago and said what are the single 
biggest problems you are facing the first would be Sarbanes-
Oxley, section 404, and the second one would be what are we 
going to do about stock option expensing.
    If you talk to a high tech exec today, there are two issues 
and they are basically equal in priority. The first is 
Sarbanes-Oxley, section 404, and the second one is how do we 
attract qualified workers, particularly from America, and how 
do we deal with the problems we are having with visa reform.
    The overall problem as we see it is that it is not just a 
problem for business, and it is not just a problem for the 
educational establishment. I met with Tom Luce's boss a few 
months ago, and Secretary Spellings made an interesting 
observation that most of the pressure for reform, particularly 
in math and science education, was coming from the business 
community, but not from parents and teachers.
    The interesting thing about that is that there was a 
national survey about 2 months ago that confirmed that, that 
basically said that parents don't see the problem, math and 
science as being a problem. In fact the biggest problem they 
cited was kids have too much homework.
    One of the things that we would note is that we are doing a 
whole series of regional summits on competitiveness with a 
major emphasis on getting to papers and teachers not about per 
se math and science education reform, but rather to talk about 
what the competitiveness challenges are facing America, the 
number of engineers from China, all of those kinds of data 
points.
    We have come to conclude that most parents don't understand 
what that challenge is. Therefore, the urgency of math and 
science to them is not of great moment. I was mentioning to Tom 
before we came up here that I have got a son who is a freshmen 
in college, I said, you know, your generation versus mine--this 
is the point that Tom had made--the difference is that your 
generation, you have got to know an awful lot about math and 
science just to understand your life, let alone, you know, 
actually going to a career in it. Whereas I could have been an 
absolute Luddite back in 1964 when I graduated from college. It 
wouldn't have mattered.
    So our point is that the issue of getting qualified workers 
has now become a major, major problem for high tech companies. 
It is a major problem in a period of time where the high tech 
industry right now, overall, is quite healthy and has a lot of 
job openings and cannot fill them.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Archey follows:]

Prepared Statement of William T. Archey, President and Chief Executive 
               Officer, American Electronics Association

    Good morning. My name is William T. Archey, and I am the President 
and CEO of the AeA, the nation's largest high-tech trade association. 
On behalf of AeA's 2,500 members that span the spectrum of electronics 
and information technology companies, from semiconductors and software 
to mainframe computers and communications systems, I would like to 
thank you for this opportunity to testify before your Committee on the 
current and future educational needs of America's high-technology 
industry.
    I would like to start off my testimony this morning with a number 
for the committee to remember: 1.5 percent. One point five percent is 
the 2005 unemployment rate for electrical engineers. One point five 
percent is dramatically lower than the overall unemployment rate in 
this country. For all practical purposes, 1.5 percent is full 
employment by whatever metric you use.
    Now this may shock many people because it goes against the 
conventional wisdom about the state of the high-tech industry, 
specifically about the job situation. There are thousands of high-tech 
jobs available in the tech industry. In fact, the most recent data from 
our Cyberstates 2006 report, published just two weeks ago, showed that 
U.S. tech employment was up in 2005 by 61,000 jobs, the first increase 
since 2000, for a total of 5.6 million. Even the high-tech 
manufacturing industry added jobs.
    However, the key to this job growth is the skills of the workforce. 
These jobs are only available to those with the proper education and 
up-to-date training. In talking with the CEOs of my member companies, 
this 61,000 net increase of U.S. tech jobs would have been much higher 
if more skilled labor was available to our tech companies. Many of my 
larger companies have literally thousands of job openings in the United 
States that remain unfilled.
    We as a nation need to address this critical shortage of homegrown 
high-skilled talent. We need to face up to the long-term challenge of 
our education pipeline, which is failing to prepare tomorrow's 
workforce for an economy that is knowledge based and driven by 
technology.
    When comparing U.S. K-12 students to their international 
counterparts, a disturbing trend emerges, particularly in math and 
science. While U.S. students in the 4th and 8th grades score in the top 
percentile, our 12th graders score at the bottom in math and science. 
This same trend occurs whether you examine TIMSS \1\ data or OECD \2\ 
data. It even occurs when examining U.S. Department of Education data.
---------------------------------------------------------------------------
    \1\ The Third International Mathematics and Science Study compares 
math and science achievement in 21 different countries at the 12th 
grade.
    \2\ The Organization for Economic Cooperation and Development's 
Programme for International Student Assessment examines the knowledge 
and skills of 15-year-olds in the 30 member nations.
---------------------------------------------------------------------------
    The Department of Education reports in their NAEP's test that our 
4th and 8th grader have improved their math and sciences scores, yet 
our 12th graders' scores in math and science have declined.\3\ And, 
even while 4th and 8th grade scores are improving, only 32 percent of 
4th graders and 29 percent of 8th graders tested proficient in math. 
This does not bode well for a knowledge-based economy than runs on 
talent and technical skills.
---------------------------------------------------------------------------
    \3\ The National Assessment of Educational Progress examines 
student achievement across the United States at the 4th, 8th, and 12th 
grade level.
---------------------------------------------------------------------------
    The challenge is that without this foundation in math and science, 
we are closing doors for our children. Without this foundation, our 
children face tremendous hurdles for careers as doctors, engineers, 
scientists, computer programmers, or any technically-based profession.
    And, more fundamentally, this is a challenge for our entire 
population. In a world in which technology is increasingly ingrained in 
every aspect of our lives, all Americans need to be technically 
proficient. Otherwise, they risk falling behind.
    As I talk with technology executives, the number one problem that 
they repeatedly identify is that of competitiveness and of access to a 
qualified workforce. They are increasingly frustrated by what they see 
as a decline in the importance of math and science education in our K-
12 school system. The tech industry sees K-12 math and science 
education as the building block on which all future tech workers will 
be based, and as such they spend considerable time and money promoting 
these skills.
    Interestingly enough there is a consensus in the tech industry 
about the need to do something. There is also a consensus in our 
colleges and universities about the need to do something. But this 
message has yet to reach the constituency that most needs to hear it: 
our parents, teachers, and children in the K-12 system.
    I recently met with Secretary of Education Margaret Spelling who 
reinforced this very point to me. She told me that all the pressure for 
education reform-particularly for improvements in math and science 
education-are coming from business and our universities. She hears very 
little from the parents and teachers about the need for change. A 
recent national survey by Public Agenda reinforced this fact. It found 
that parents do not see a problem with math and science education, 
despite the statistics that I gave earlier.
    To address these concerns AeA is mobilizing its nationwide 
grassroots organization to communicate the urgency of these issues to 
the American people. We have convened a series of regional seminars to 
address this skill shortage and to inform communities about the 
importance of math and science education at the K-12 level and about 
the need for a technically savvy workforce. The competitiveness debate 
cannot remain inside the beltway. This is not only about the future of 
the U.S. tech industry, but about our children's future. It is their 
jobs, their prosperity, and their standard of living that are at stake.
    We as an industry and a nation have to improve the perception and 
attraction of careers in science, technology, engineering, and math. 
All too often, these careers are seen as the domain of nerds and geeks, 
instead of inventors and leaders. This is tragic. This type of attitude 
embraces ignorance, and ignorance is poison to an economy that runs on 
technology and innovation.
    Let's face it, we are asking more from our students. We are asking 
more from our parents and teachers. We are asking for everyone to 
recognize the new world out there. In educating our children, we would 
be wise to exalt the accomplishments of America's great inventors and 
innovators. Instead of enticing our children to pursue science and 
engineering with statistics about how hard the classes are or how 
likely they are to flunk out, we would be better served by focusing on 
how scientists and engineers make life changing contributions to our 
society. And, if personal fulfillment isn't enough, there is more. Jobs 
in the high-tech industry pay on average 85 percent more than the 
average private sector job.
    The competition we now face comes not only from the neighboring 
school district or state, but from the entire, increasingly flat world.
    This search for qualified workers is compounded by a visa policy 
that is badly broken. For the past 60 years America has been the 
beneficiary of an influx of many of the most talented minds on the 
planet. This period could grind to a halt given the post 9/11 
restrictive visa policies, tremendous opportunities abroad, and the 
perception by foreign nationals that they are not wanted.
    When 40-50 percent of our graduate students in math, science, and 
engineering are foreign nationals, we cannot afford a visa policy that 
kicks them out of the United States. These individuals graduate from 
U.S. colleges and universities and often represent a critical pool of 
qualified talent.
    By kicking them out, we lose their intellectual abilities and 
innovations. By kicking them out, we force our companies to follow them 
abroad. By kicking them out, we lose the new companies, wealth, and, 
ultimately, the hundreds of thousands of high-paying jobs they would 
have created. By kicking them out, we are only helping our competitors 
in other nations enhance their talented labor pools by chipping away at 
our own.
    And, beyond the economics, consider what happens even when they do 
go home. Foreign nationals who return with an American education tend 
to retain positive impressions of the United States as they become 
leaders in their own countries, fostering strong friendships and 
linkages. I saw this firsthand recently in Shenzhen, China when a group 
of high-tech executives met with the vice-mayor who proudly told us 
about earning his Ph.D. at UCLA. His experience there gave him a 
profoundly favorable view of the United States.
    I fear that we are losing these linkages. These people become 
members of the business and political elite in their countries. We 
cannot afford to lose these ties.
    America's dirty little secret is that high-skilled immigration has 
for decades been a critical safety valve for attracting and retaining 
the best and the brightest from around the world. We as a nation tend 
to underestimate their contributions. By kicking skilled immigrants 
out, we are kicking out tomorrow's Albert Einstein, Andy Grove, or 
Sergey Brin.
    So, while the need to act is strongly recognized by many here in 
Congress on both sides of the aisle, the legislative action that could 
began to address these issues lies dormant. Too many people, including 
Members of Congress and the national media, remain distracted by more 
immediate and visible concerns.
    Unfortunately, by the time this issue overtakes all other issues in 
Congress, it will already be too late. The education of our workforce 
is a long-term process, with long-term consequences for our businesses 
and for our nation.
    The irony is that the United States already has proven it can 
compete, but often needs fear to motivate it. In the 1950s, the Soviet 
Union challenged American leadership in technology by launching the 
world's first satellite, Sputnik. Americans feared the Soviets would 
use this space technology as a weapon. The United States met this 
challenge by launching a national program to improve math and science 
education, ultimately winning the space and technology race. In the 
late 1980s and early 1990s, fear abounded that Japan would become the 
world's dominant economy. U.S. businesses responded to the challenge by 
refocusing their efforts, adopting new technology, and innovating their 
products and processes.
    America can certainly compete. It has the flexibility, pioneering 
spirit, and capital to win the race; but to do this America needs to 
recognize that future innovation is not predetermined to occur in the 
United States. Even if we were doing everything right, we still face 
unprecedented competition from abroad. Rather than face the new global 
economy unprepared, America needs to confront this competition head-on 
by preparing our pipeline and building a strong foundation of math and 
science education. If we don't, America faces the erosion of its lead 
in knowledge-based industries.
    Thank you for this opportunity to testify before you this morning. 
For more about the competitiveness issues facing the technology 
industry and our country, please read AeA's Competitiveness report at: 
www.aeanet.org/competitiveness.
                                 ______
                                 
    Chairman McKeon [presiding]. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Thank you to the 
panel.
    We have discussed this in the past, the idea--Bill, I know 
you have been out talking to parent and teacher organizations, 
but you touched on it at the end of your remarks, sort of 
reconfiguring the idea what it means to be engaged in math and 
science education, and what possibilities that holds at the end 
of your educational attainment that the people don't really see 
the connect of and the necessity of math and science education, 
to, as you said, to know your life or to figure out your life 
or to participate in a career that is going to reward you in a 
fashion to provide for your family in the near future and the 
rest of that.
    A lot of studies look, and they have suggested, and I have 
alluded to in my testimony, that we have people teaching math 
and science who really don't know very much about it, so it is 
hard for them to inspire these students because they really 
can't take them to the next place in that learning process 
about the excitement of this.
    I spent a lot of time in classrooms where you do see a 
teacher that is thoroughly versed in the subject matter, 
whether it is biology or whether it is computer languages, you 
see a different attitude with those students and the engagement 
and maybe thinking about taking a second or third course of the 
sciences, whatever it is.
    But I am really worried that we are taking a lot of 
potential talent in these classrooms, and we are turning them 
off. Because we don't have people who are competent enough to 
then take education, as we like it to be, whether it is 
history, math or science, to excite students about the possible 
continued learning in that field. I don't know what feedback 
you are getting from your forums, whether parents sense this or 
they don't believe it is true or not accurate?
    Mr. Archey. I would say it is a very mixed bag, Mr. Miller. 
The other side of that is our regional summits are also showing 
something else.
    We are an immensely insular society. We are not 
particularly interested in what the hell is going on in the 
rest of the world, when you start to convey the notion about 
what the challenge is, and that it has not been predetermined 
that America is going to be No. 1, technologically or 
economically. The last 60 years we earned it.
    But the point I would make is that most people don't see it 
that way. I used to joke about the fact that my hometown in 
Pittsfield, Massachusetts, they didn't care about what was 
going on in Lanesborough in the next town let alone what was 
going on in Beijing. I think this is one of the problems we are 
seeing.
    We do get the parents audiences, and we start talking to 
them about certain competitiveness indices. A lot of them do 
wake up and then they get very concerned. Because what we are 
talking about for the most part is let us get rid of the word 
competitiveness, even innovation, let us talk about really good 
jobs for your kids and your grandkids.
    Mr. Miller. Tom.
    Mr. Luce. I would simply add to that. I really do think it 
is a cultural factor we have to address with education. Our 
Secretary, for instance, has a way of saying when then Governor 
Bush talked about every child reading at grade level by the end 
of the third grade in Texas, every head would nod.
    If we said today, every student needs to take and pass 
algebra in the eighth grade, every head would go like this. 
That is because we haven't communicated that--for instance, we 
have proposed a parallel program to reading first, math now, 
which would follow the same guidelines of trying to better form 
the teaching of math. We started to call the program Striving 
Mathematicians till we realized not many people would say there 
are striving mathematicians.
    We have to convince people that it is the key to a job 
whether you are a mathematician or a scientist. She would also 
point if you were at a reception and you visited very long 
somebody might come up and brag to you that they can't balance 
the checkbook. They wouldn't brag to you that they couldn't 
read. So we have to address and bring it to a level that 
everybody understands that math and science is important to 
their kids' future.
    I will also agree on content knowledge. What we had to do 
in reading was develop sound principles and retrain teachers. 
We have to do the same thing in math. We are just going to 
announce the end of this week, the executive order was signed 
creating a National Math Panel. We have to look at how are we 
instructing youngsters in elementary school and middle school 
so they are prepared to move into high school with better 
fundamentals.
    That is going to take content help to those teachers. We 
have to bring instructional help and content help. We have to 
do it on a national scale. We can't do it with pilot programs.
    Mr. Miller. Mr. Archey, if I might, over the last couple of 
years, there has been sort of a raging debate that if you did 
create these new engineers, if you did create new computer 
scientists, if you did create people in those fields, those 
jobs are being outsourced so they will not get the advantage of 
this education. So why would you pursue this education?
    In the last several weeks I had an opportunity for 
different reasons to spend time with the companies who would 
hire these individuals, where they are CEOs. They have now 
indicated this is a matter of competition to find engineers 
today for jobs here in the United States. It is not a question 
that he is being outsourced, this is now companies openly 
competing against one another.
    If you hear about someone who is thinking about a job, you 
want to see if you can pursue that individual to see if you can 
lure them away. Has it changed that much because of this? Do 
you believe it has?
    Mr. Archey. I believe it has. Again, as I cited with the 
data, the industry didn't really start hiring big time until 
2005. There was a 5-year lag in terms of serious recruitment. 
Then it really geared up in 2005. Then I think that there is a 
problem of getting American workers. The other problem you have 
got is you have got 57 percent of all PhDs in engineering who 
are foreign nationals graduating from U.S. universities.
    The problem is that it is more and more difficult to get 
access to them through the H-1B program because the H-1B 
program basically fills its allotment basically the second day 
of the fiscal year.
    I will give you one quick anecdote from a CEO of a company 
in California, a very large company. I was with him a couple of 
weeks ago, and he made an interesting, interesting observation. 
He said, I have always considered some of the government stuff 
is not terribly crucial to the bottom line of my company. He 
says you know, right now, I am hitting it two ways.
    I said, how so? He said, we cannot get the kind of 
engineers that we want. They have a particular emphasis in a 
particular kind of technology that requires very interesting 
engineering skills, and they can't get Americans. But he said, 
I can't get foreigners either because I can't get the visas.
    I said, where do you want to go then? He made an 
interesting comment for this particular specialty. The best 
engineers in the world were in Bulgaria and Romania, but a very 
difficult time in getting them. He said I am in a situation 
right now where government policy or the lack thereof really is 
affecting my ability to run this company.
    Mr. Miller. Thank you.
    Chairman McKeon. Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman. It has been 
mentioned that half of high school graduates are not ready for 
college level math and science. It has also been mentioned that 
22 States require only 3 years of math and science for high 
school work. This is problematic, and we know that science and 
math education follow a sequential pattern. If you lose out in 
one particular year or lose out along the way, you get lost and 
get turned off to it.
    What can we do from the Federal level? Since most of the 
curricula are designed at the State level, what is our role? 
What can we do to encourage sequential tracking as opposed to 
horizontal tracking to make sure that we are getting good, we 
are not losing kids along the way, and we are actually truly 
scientifically tracking the students' progress?
    Mr. Luce. I think you have raised a very important point. 
In our National Math Panel, we hope that we can come out with 
the principles, components, that should guide mathematics 
instruction, not the curriculum. We are not in the curriculum 
business but just like in reading we develop some principles 
and components.
    We then had grants to encourage States to retrain their 
teachers. We need to do the same thing in math. In that charge 
to that panel, we said, what do we have to do in elementary 
school, in pre-algebraic concepts to actually prepare a student 
to take and pass algebra in the eighth grade or the ninth 
grade? Because if they don't do that, they said you can't 
follow on the path.
    Every study ever done by the U.S. Department of Education 
says the No. 1 indicator of college readiness is Algebra 2. You 
know, it is a difficult concept to sell to people. As I said, 
there are cultural issues but it is an absolute necessity in 
today's world. We believe we need that national math panel, and 
we need the Math Now Program to ensure that we get on with it.
    We just, it was mentioned earlier that the academic 
competitive grants, we announced the policy on rigor for the 
first year. We are trying to encourage Pell student aid toward 
the completion of Algebra 1, hopefully 2 years from now Algebra 
2, so we can encourage and incentivise students to do these 
things.
    Mr. Boustany. The other part of the equation is qualified 
teachers in math and science. We just passed the higher ed 
reauthorization. In that bill we have the teacher incentive 
fund. Can you comment on that? Do you feel like that is going 
to have an impact?
    Mr. Luce. Yes, sir, we do. We hope it does. We have 
published the competition proposals, I think it was in the 
register Monday of this week for the $100 million that Congress 
appropriated. We hope we will continue to fund that program. We 
think it is very important to have programs that are piloted 
that can show how we can successfully deal with differentiated 
pay, for instance, for math and science teachers in our 
schools. How can we create incentives for teachers to teach in 
our high-need schools who have content knowledge?
    I think incentives are an issue that have to be addressed. 
The advanced placement incentive program that we have proposed 
has been supported by every teacher group where it has been 
implemented because it gives bonuses for teachers for 
additional duties and also to receive professional development 
from the college board people, and it rewards students who take 
and pass AP courses.
    We believe that is a program that has been proven, it can 
be taken to scale in 50 States. So we believe we need to 
address elementary, middle and high school, and the way to 
address high school is with advanced placement incentive 
programs, where today approximately 40 percent of our high 
school, most of them in high-need areas, don't offer advanced 
placement courses.
    Mr. Boustany. Thank you, Mr. Chairman. I yield back.
    Chairman McKeon. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I want to thank the 
distinguished members of the panel for your testimony here 
today.
    Mr. Archey, I appreciate what you said about Massachusetts 
and the relationship that people have to one another on that. 
But I wanted to ask you in particular a question. We hear a lot 
in my district about people that are in the engineering field, 
engineering-related fields who tell me that they can't get a 
job in an existing company because their skills or their 
education may vary slightly or to a significant degree from 
what is being requested in the job offered.
    What are we going to do to accommodate those people the to 
try to get them to fill jobs? Do you agree with that 
assessment, there is an issue there, and what is being done or 
what can be done to make sure those people don't fall by the 
wayside while we are trying to figure out our H-1B visa 
situation?
    Mr. Archey. I think that is correct, there is. That is an 
issue when a lot of companies are trying to hire someone in a 
particular field with certain digitals issues and things like 
that. A lot of times you may have an engineer who may have an 
EE degree but their knowledge is not at all up to date as to 
what have been some of the major changes, because there has 
been some very significant changes in the engineering 
curriculum, for example, in many of the engineering schools.
    So I think that the one thing that that brings home, and it 
has become, perhaps, somewhat trite, but no kid who is 
graduating from a college these days is going to be able to 
rely on what he learned in college for the rest of his career. 
People don't like to hear it any more, but this is lifelong 
learning now. Engineers are going to have to stay up with what 
the state-of-the-art is and things like this or they are not 
going to be able to get or retain the jobs.
    Mr. Tierney. Do you feel we have people out there with 
resources like this in our education or college program?
    Mr. Archey. It is a mixed bag. It is a mixed bag. In fact I 
would argue some of the most innovative programs--not for 
engineers but for technical workers--some of the most 
innovative programs in the country are occurring at the 
community college level, particular in Massachusetts, the 
Middlesex College, which still does most of the training for 
Raytheon under a contract.
    On a related point that Mr. Miller raised, I just don't buy 
this notion that kids don't go into certain engineering fields 
because they think it will be outsourced. I look at what 
happened in the 1990's. The high tech industry went from 4 
million to 6 million employees, a 50 percent increase in 
employment. We had a 2 percent decrease decline in engineering 
enrollments by our students during that same point of time. It 
was also the same point of time when the high tech differential 
versus the rest of the wages in the private sector was 94 
percent.
    You know, the interesting thing is, I am not saying there 
aren't some jobs being outsourced. For example, in software, 
the higher level outsourcing, for lack of a better word, 
strategic software and programming, there is a lot of open 
jobs. Those are very high paying jobs.
    I would submit last that a part of the problem that Mr. 
Miller surfaced is that we have done a very poor job in 
explaining what people do in these kinds of jobs. Instead, what 
we have talked about is that only geeks and dorks take 
engineering and math, and really cool people don't do that. I 
think that is the problem.
    Mr. Tierney. You hit on something that was my next question 
on that. We made a concerted effort in our district to get high 
school groups, junior groups and Girls, Inc., and groups like 
that out to industry. So two questions on this. One for Mr. 
Archey, what is your job doing to make sure that they make 
those opportunities available for those groups? What is the 
outreach on that?
    Mr. Luce, we had a program called School to Career. I think 
it was a pretty successful program, but it has sort of gone by 
the way. But it is at least in my district's experience, a lot 
of kids got out, and got the feel of what was going on in the 
industry and then decided to stay on in school and continue on 
in that area, many of them technology related. A number of 
teachers did the internships and were able to bring back to the 
classroom a different attitude about lighting these kids up 
with math and science.
    Why did we let that program go away? Should we look at 
starting to reintroduce it? If each of you would answer those 
questions, I would appreciate it.
    Mr. Archey. I will answer the first one. High tech 
companies spent an enormous amount of money on reaching out to 
school systems and to kids in terms of trying to enhance the 
attractiveness. I don't know if they have found the magic 
bullet, but I will just tell you in the last year, this is not 
on the basis on a systematic or systemic study, but on heavy 
anecdotal information. Companies have even increased the amount 
of money they are trying to spend now on trying to make the 
idea of a career in high tech far more attractive, and also in 
improving how local schools deal with getting those kids ready 
for those jobs.
    Mr. Luce. Congressman, with respect to your question posed 
to me, what we have tried to do is increase the flexibility of 
high schools to receive money and decide how to best apply the 
money. I think there are many instances where school to career 
programs have worked very well, and there have been others that 
haven't worked very well. Our attitude has been let us try to 
get the flexibility to the schools so they can do what is 
working.
    However, we are also starting an initiative within the 
Department, in addition to scientifically based evidence by 
IES, to promulgate a set of transparent criteria where we could 
say to schools here is evidence, it is not the gold standard, 
but here is evidence that shows X program has a very promising 
outlook. Until we get further research, you may want to 
consider doing this.
    I think we have to supply more information to schools, not 
mandates, but information that says we find, you know, this 
type of program is working, and my Department is starting that 
initiative so we can get more information as you have just laid 
out.
    But, clearly, we are also looking in the Academic 
Competitiveness Council to see what type of programs across the 
government are speaking to career-to-school awareness, 
relevance, things of that nature, that we can help spread.
    I think one problem is we have all of these programs in all 
of these different agencies. We actually have the distribution 
network to funnel what we are learning. Somehow we have got to 
coordinate that in a better way so that the Department of 
Education is able to say to States, here is evidence of 
programs across the government that you may not be aware of. I 
mean, not everybody is tuned into what the National Science 
Foundation is doing. We need to let our schools know so that we 
are giving them that help.
    Mr. Tierney. Thank you, Mr. Chairman. If I could have one 
editorial note, Dean Kamen, who was the inventor of the Segway, 
I understand, where you just stand up on it and toodle around 
town, just sponsored a contest, internationally, on robotics.
    I have to tell you, I went to the regional thing. It was in 
the University of Massachusetts--Boston again, Agannis Arena. 
The place was packed, you would think it was a football game 
with the attention and the energy people were showing on that 
as they developed their own programs.
    One of the schools in my district won rookie of the year 
award on that, wound up going to Atlanta. Those types of things 
are incredibly effective and those are initiatives by people in 
the industry, working together with the education community 
being entirely successful. I think we should all appreciate 
that.
    Thank you.
    Chairman McKeon. Mr. Tierney, this is all schools. I am 
sure we all do. I see some exciting things happening. We don't 
focus a lot on them. It seems we mostly focus on problems but 
there are a lot of great things happening at all levels, all 
pockets.
    As the Secretary says, if we can get those distributed so 
other people can look at them and share them, that is a great 
idea.
    Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman, following up on 
that. Maybe we need a national strategy like we have had with 
other programs to really tout them like, you know, going to the 
Moon or something. Because we don't seem to be getting the 
message out. A recent poll showed that 52 percent of parents 
think that their kids are getting enough education in math and 
science, and 66 percent of the students don't think that they 
need math and science to succeed after school.
    I think we are going to find an economy, living in a global 
economy, we are going to find that that really is not going to 
bode well for us in the future. Maybe you will come up with 
this after you finish your reforms that you are looking at. I 
know many committees in Congress are looking at math and 
science reforms now. In fact there is another hearing in the 
Science Committee, on which I serve too, on the same issue of 
math and science.
    I think we are all really concerned about this. I go into 
schools when I am home in the district, and to go in 
particularly to the middle schools and talk to the seventh and 
eighth--sixth and seventh and eighth graders and say how many 
want to be engineers, and how many want to be scientists? It is 
always the young boys that raise their hands. I am always 
saying, you know, that women can do this just as much as men. 
We have got to encourage the young women to take this up too.
    So as we look at it, though, I think that in some cases it 
is going to be where we maybe make some legislative reforms 
before your report comes out in February of 2007.
    So, Mr. Luce, I was just wondering how you are planning on 
dealing with any legislative proposals that may be introduced 
or considered before your report is issued. Do you have a 
process in place which you will coordinate with the committees 
or members working on the math and science reforms over the 
period that you are working on your report?
    Mr. Luce. Yes, ma'am. Let me start with the last point. We 
obviously do. There is a lot of interest in math and science, 
as you have indicated. My personal concern, and, I think, the 
Secretary's, is that so many different committees are looking 
at different things. I hope we don't end up with 1,000 more 
flowers blooming as opposed to deciding what needs to be taken 
to scale, because that is the issue that is facing the country 
is how do we take something to scale.
    Second, with respect to your gender question, the Secretary 
is having a national summit for girls in math and science that 
is going to be attended by some of the leading female engineers 
and scientists in the country. They are interested in beginning 
a promotional campaign--the women who are attending, not the 
agency, but the women attending--to promote more female 
involvement in math and science. That is also a critical issue.
    With respect to coordination with committees, we obviously 
look forward to giving any technical assistance we can. We 
think it is terribly important these things be coordinated. Our 
Secretary is testifying before science committees, education 
committees, various committees, and we--again, I think it is 
very important that we somehow come together and not end up 
with a diffused effort here, which would not accomplish what I 
think everybody knows we need to accomplish.
    Mrs. Biggert. Thank you.
    Ms.--is it Ashby? With your--the GAO report, I notice that 
there are 207 different programs in existence right now. And 
really, the Department of Education only has four, which kind 
of surprised me, versus what all the other agencies or NSF and 
the Department of Energy have. Does the--in looking at that, 
did the Department of Education, did they coordinate with these 
other agencies as far as the programs?
    I know, like, my son went to--when he was in high school, 
he went to a program at Fermi Lab on Saturday mornings; but we 
were just lucky just to learn about it. We didn't know that it 
was there; but he, you know--of course, two lawyers having this 
engineer who blew up things in the driveway, we didn't know 
what to do with him either.
    How would you suggest we coordinate all these programs?
    Ms. Ashby. I am sorry, I missed the last----
    Mrs. Biggert. How would you suggest that we coordinate all 
these programs?
    Ms. Ashby. Well, as Mr. Luce said in his opening and has 
referred to since, there is the National Academy of Science 
Council, which has been tasked in coordinating programs at the 
Federal level and executive branch.
    Mrs. Biggert. Do you think they have done a good job?
    Ms. Ashby. I think they are making progress. We did not 
make an assessment per se of what the Council was doing. We did 
note the things Mr. Luce referred to are happening, and they 
seem to be reasonable and certainly initial steps that one 
would have to take. Of course, that will take more time to see 
what is actually going to occur.
    Mr. Luce. Could I give you at least I hope some assurance 
in this Academic Competitiveness Council, we have had the 
active involvement of the OMB, the Office of Science and 
Technology Policy. We have had great entries from all the 
agencies in figuring out how could we better coordinate and 
distribute and disseminate; and I think heretofore, we really 
haven't focussed on that.
    As you say, the Department of Education was the second 
smallest civilian agency in terms of spending on math and 
science, and yet, you know, we are the ones that are in contact 
with all the schools who are saying, Secretary Spelling says 
every time she comes back from out of town, the schools are 
just saying, tell me what to do.
    And we need to disseminate more what is happening across 
the government and, again, bring things to scale. I hope--I 
hate to sound repetitious, but that is--you can't solve the 
quantity problem and thus the quality problem unless we bring 
programs to scale.
    Ms. Ashby. And in that regard, we need to have an 
evaluation of existing programs to know which programs need to 
be brought to scale, to use Mr. Luce's terminology. And that is 
one of our main points.
    Mrs. Biggert. Thank you very much. I yield back.
    Chairman McKeon. Thank you.
    Ms. McCollum.
    Ms. McCollum of Minnesota. Thank you, Mr. Chair.
    I have a couple questions. I think it is probably best just 
to go through them and then sit back and listen. One is how 
important is it to our higher education institutions to have 
access to international students? In other words, in order for 
a university to offer an engineering program, be successful at 
doing it, they need so many students enrolled. So that does 
have an impact in supporting our higher education institutions 
for having the equipment, ongoing faculty and the support from 
our government to do that.
    And then just talking to whether it is a tourist business 
or student working with the Department of State for getting a 
visa to come to the United States at all, it is cumbersome, it 
is expensive, it is awkward. And there are a lot of other 
countries which have high security standards, and some of them 
have even higher security standards than what we had in place 
for a while, and they don't seem to be having quite the 
barriers.
    And then what I found alarming--and, Mr. Chairman, I will 
submit this report to the committee--it's Minnesota Private 
College Research Foundation. It has changes in demographics, 
challenges and opportunities in higher education.
    In 1991, the United States ranked second in college 
participation, and this is among industrialized nations. In the 
year 2000, we ranked 15th. So we have fewer students attending, 
and part of that is the cost in that.
    The other part of my question is kind of three-part. As was 
pointed out by one of the other Members on the other side of 
the aisle, only 22 States have math and science, high-level 
math and science. One of the goals of No Child Left Behind was 
to have high standards; and if we have 22 States not meeting 
those standards, how can we say we have really achieved having 
high standards with Leave No Child Behind?
    One of the things that you said was that we didn't want to 
get involved in curriculum at a Federal level; but if we are 
not involved at some level, especially with the hard sciences, 
math and science, with curriculum, how do we know we are really 
achieving our goal of leaving no child behind? And so to that 
end, has the Department looked at, for example, ACT scores 
versus the number of schools in the State that might be on not 
meeting adequate yearly progress?
    For example, Minnesota has extraordinarily high ACT scores. 
We know we have much work to do with bringing every child 
forward to achieve those high standards, yet if you look at the 
number of schools that we have not made adequate yearly 
progress because of our standards being so high, the two of 
them would not match up.
    So has the Department done anything like that? Has the 
Department looked at schools that have strong after-school 
support programs for students in math and science, school 
districts that have tried to provide those kinds of programs 
for after school for students, and how were they achieving 
moving forward with students in math and science? Those are 
being cut in both statehouses and here. And what is the impact 
of programs such as TRIO for reaching out to that minority 
student who may be kind of toward the industry; kind of 
figured, I need to get my math and science brushed up, but it 
is the first student who is ever going to apply for college, 
and maybe it is a step of doing a community college to do that?
    Are we--I mean, I know we are looking at all these other 
programs, but are we really looking to see how we have 
integrated everything else?
    Mr. Luce. We are trying. I would respond in several ways. 
One, with respect to--of course, under No Child Left Behind, 
every State sets their own standards. There are lots of 
organizations outside the Department of Education that rank the 
rigor of those standards. Also in No Child Left Behind is a 
requirement that every State participate in the NAPE test. So 
an observer has a chance to look at NAPE scores, compare them 
with State scores, and begin to ask questions.
    We have also asked in the American Competitiveness 
Initiative that science in high school be added to the 
assessment system. I think that would help what we are trying 
to do because what gets reported gets done. What gets measured 
gets done.
    Third, with respect to academic competitiveness grants, 
which Congress appropriated $2.5 billion, we just released a 
definition of rigor that deals with courses of study. It 
doesn't deal with curriculum, but it deals with courses of 
study, and we hope--that is a significant amount of money that 
will go to a significant number of students. And I would hope 
and think that every high school would try to make sure that 
every youngster they serve has the opportunity to meet these 
courses of study so they can get this enhanced student aid. If 
you major in science or math under this program, in your junior 
year you get an additional $4,000, senior year an additional 
$4,000. That is a significant financial incentive.
    Now, we need to make sure that the youngster who goes to 
college is prepared so that they stay in school. As you point 
out, we need to do better on college readiness. The ACT scores 
reflect this across the country. Those ACT scores are reported. 
A lot of notation is given to those. ACT themselves publishes 
State-by-State results of ACT. There are four tests. They show 
what it means on college readiness, and we pay a lot of 
attention to who is doing a top job on various external 
measures like that.
    And again, under promising practices, we hope to 
disseminate and draw attention to the States that are doing 
well because there is not enough. As the Chairman said, I don't 
think there is enough publicity in terms of what we do know is 
working.
    I think what I can show you in any State, in any economic 
condition, you can imagine a top-performing school, and the 
issue is, can we replicate? Well, I know we can't replicate if 
we don't know what is working; and we don't have time to 
reinvent the wheel, and so I believe very strongly we must 
increase how we are disseminating knowledge, not as the 
mandate, but disseminating knowledge.
    Mr. Archey. Responding to your first questions very 
quickly. On the decline of foreign students coming to the 
United States in 2004, a 28 percent decline in foreign students 
enrolling in graduate programs, that is partly a function of 
visas. It is partly a function of a feeling of, are we wanted, 
which is very strong. And then the third, which is not getting 
much attention in the United States, is how much money other 
governments have put into graduate programs of engineering and 
science all over the world, particularly in Australia, 
particularly in Western Europe where they also talk about how 
we are going to teach in English and all of that, and that is 
something we never had to deal with.
    I mean, we were uncontested in terms of graduate programs. 
Other countries have said, you know, we are going to take a 
page out of the United States' notebook or plan over the last 
50 years, and we are going to buildup our graduate programs in 
science and engineering and compete against the United States. 
So that is another reason for the decline.
    And on the one, problems in visas, a very quick anecdote. I 
have a CEO for a company that has a fairly significant 
operation in China. He wants to bring back his Chinese 
engineers and managers to the States for American culturation.
    So there first was going to be 19 Chinese workers. Not 1 of 
the 19 could get a visa. So he went again the second time, 15. 
Not 1 of the 15 got a visa. He said he doesn't think he has got 
a bad group of people.
    So what has he done? And he said this to me directly, he 
said, I am not saying this a lot of jobs, it is 12, 15 jobs; 
but I now do all of my training for all my foreign workers, 
particularly for China, in Toronto, Canada. Those jobs ought to 
be in the United States.
    Mr. Luce. I would add----
    Chairman McKeon. Time has expired.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman. I appreciate the 
opportunity, and I thank you for holding this hearing. This is, 
I think, one of the most important issues that we need to 
address as a Nation.
    I am a physician, and I am not sure what lit that bug in me 
years and years ago, but I do know that there were more folks 
who were interested in the sciences at that time, and the data 
is foreboding. Our pipeline is not full at all. So whatever we 
do, we have got a long way to go until we see results of what 
we do.
    Somebody told me the other day that we are graduating more 
undergraduates with a degree in sports management than we are 
engineering. And I am not--I don't know the validity of that, 
but even the fact that somebody could say that and have us 
believe that it is credible is frightening.
    Mr. Luce, you have talked about identifying those Federal 
programs, and you have as well, Ms. Ashby, that focus on math 
and science education and their success. Is anybody looking at 
private programs that encourage math and science education?
    Mr. Luce. Yes, sir. We are. And I would like to commend one 
of the members of AeA, Texas Instruments. For instance, 
Congressman Johnson represents them. They noticed a void in the 
State of Texas that there was no high school offering a course 
in engineering, and they developed an engineering curriculum, 
which has now been approved by the State of Texas, so actually 
high school youngsters had a way of learning math and science. 
But understanding its relevance could take an engineering 
course. And they are collecting result data, and we hope to 
have that soon to share with the country.
    So we have--I have met personally with the GE Foundation, 
the Shell Foundation, Exxon, Gates; we are looking at all the 
private programs and, again, taking inventory of those, 
because, again, we don't have time to reinvent the wheel.
    Mr. Price. I had the opportunity last Friday--and I am 
pleased Mr. Tierney talked about the robotics competition. I 
had an opportunity in Atlanta to go to the national competition 
finals, which was thousands of kids. This was started by Dean 
Kamen, as you mentioned, who invented the Segway. 15th annual 
national competition. These kids are incredible, and the 
results are phenomenal.
    There was a study that was commissioned by Dean or asked 
for by Brandeis University and theFord Foundation and found the 
participants in this math, science, robotics competition were 
twice as likely to major in science and engineering, and that 
was across all demographics, including low-income and urban 
schools. They were more than three times more likely to major 
specifically in engineering.
    He does this all for a fee of about $6,000 per school, per 
high school; and then you get mentors and community volunteers 
and the like. But that kind of program seems to me to have 
incredible benefit and bang for the buck, if you will.
    Are we as a government looking at that kind of program that 
has proven itself time and time again over the past 15 years? 
Anyone?
    Mr. Luce. Well, I would say, yes, we are looking at the 
programs. What we are also, though, looking at is how do we 
instill in more youngsters the basics so they can develop into 
that student who is interested in robotics? And I think we face 
a huge issue on the quantity side, the relevant side, the 
excitement side of getting more youngsters interested so they 
can compete.
    We are still--as you discussed in that program, we have a 
lot of amazing youngsters who are doing fabulous things, but we 
need more of them. And I think that is the issue we face as a 
country.
    Mr. Price. Ms. Ashby, have you looked at that program 
specifically?
    Mr. Luce. Yes, ma'am. We have.
    Ms. Ashby. No, we have not.
    Mr. Price. I would encourage you to do so. I have seen 
regional and then went to the national competition. These kids 
are as excited as they can be about it, and the numbers are 
really undeniable.
    Let me ask one final question, if I may, and I would be 
interested in each of your comments. We have got lots of 
programs that the GAO report, you pointed out--207-odd 
programs. When there are lots of programs, oftentimes that 
means that we don't know which one works.
    Do any of you have a sense about the most appropriate--
where we are getting the biggest bang for the buck? And in 
those programs and how we might--how you might recommend that 
we do our job better and focus the resources that we have 
available on where we can get the biggest bang for the buck?
    Mr. Luce. Well, I feel like it is absolutely essential that 
we develop better evaluation, focusing on student achievement. 
What we already know is in those existing programs, there is 
very little student achievement data; and I think we must 
improve looking at output results from programs. We need to 
understand which programs--if a teacher has been trained in X 
program, what happens to student achievement of that teacher?
    We don't have those common metrics in place today. They 
need to be in place today. We need the data to get that done, 
and I think it is an absolute necessity to have that done, and 
we hope to put that in, in Academic Competitive Council, 
without taking away an NSF program. We have got to make sure 
that we get metrics to determine what is working, and that has 
got to be based upon student achievement data.
    Ms. Ashby. I would certainly agree with that and go a step 
further and hope it is not just semantics. I don't know whether 
it is or not.
    In addition to outputs of programs, if there is any kind of 
evaluation with most programs, you would at least have some 
listing of the things they have done; but to go beyond that and 
look at the outcomes, and these things having been done, what 
has been the ultimate results in terms of increased number of 
students graduating from high school, going on to colleges, 
universities, majoring in STEM fields, and then going into 
those fields, because, of course, one of the things we are 
reporting in our October 2005 report and also in this current 
testimony is a number of people trained in STEM fields don't 
actually work in those fields.
    So we need to understand what is happening in terms of the 
dynamics in addition to the training. But certainly for each 
program look in terms of, yes, what are its outputs, what are 
the outcomes; and in terms of coordination, I hope--and what 
your group is doing that it is going beyond--I don't want to 
say the surface, because it sounds like I am belittling it, and 
I am not, but you need to know what is going on on the ground 
in the local communities over 200 programs. We don't know 
whether there is overlap or not, and the only way you can 
really find out is to look at the ground level and find out 
what kind of coordination is going on at that level for people 
seeking services, and that is hard, that is difficult, it is 
labor-intensive, it is costly, but until that is done, you 
really don't know whether you have the fabric of programs that 
are most needed.
    Mr. Archey. Dr. Price, I will defer to my two expert 
colleagues on that.
    Chairman McKeon. Thank you.
    Mr. Holt?
    Mr. Holt. Thank you, Mr. Chairman and Mr. Luce, Ms. Ashby, 
Mr. Archey. As one who--maybe my colleague from Illinois was 
referring to who used to blow things up and drive away and 
nearly electrocuted myself and nearly burned down the house; 
and in my passage through the realms of geekdom and dorkdom, 
and after now 7-1/2 years in Congress, and several decades 
before that arguing and advocating and agitating for science 
for all Americans, not just for future scientists, I am glad to 
see the attention paid to this. And I hope it is not just a lot 
of talk.
    The attention in recent months is quite encouraging. 
However, I should point out that still teacher professional 
development, funding for teacher professional development in 
STEM fields is not yet back at the level that it was when this 
administration took office.
    You know, in the budget request for 2007, there is good 
emphasis on the Math Now program, but nothing comparable in 
science education that I can find. And I hope we will put high 
priority on science education as well, but I don't find it 
there.
    I like the idea, Mr. Luce, of finding programs that we can 
bring to scale and to remove redundancy, but it seems to me 
that the problem we face now is not having too many weeds in 
our garden, but having just tiny little plants sprouting. And 
clearly we have needs for more teachers, for more mentoring, 
for more professional development research in teaching methods; 
and, you know, we need to determine some priorities maybe even 
before we begin evaluating the programs.
    But in any case, since the problem is we are making a much, 
much smaller effort in science education than we should be, I 
don't--I certainly don't want to see any effort at evaluation 
and use to delay and discourage programs. It is not that we 
have too many programs at this point, I don't think.
    And, you know, with regard to evaluation, I am struck by 
the fact that the Department of Education, in the best figures 
that I can find here, spends certainly less than 1 percent of 
its budget on research and development and statistics, and this 
is a $700-plus billion industry, education, where we are 
spending maybe 3/100 of a percent, pennies on the hundreds of 
dollars, on research and development and how people learn and 
how to teach. I think--well, that is something that deserves 
our attention.
    Well, let me get to a couple of specific questions and 
leave them with any of you who care to answer them.
    Well, one is, I guess, for Mr. Luce. The America 
Competitive Council effort to evaluate programs. How do you 
expect to work or how are you now working with the National 
Science Board to evaluate NSF's programs, because those are 
already going under way?
    And let me just throw out another question and then be 
quiet for a little while. The effort to bring highly qualified 
teachers into the field is sometimes interpreted to mean, let's 
bring highly qualified scientists in the field. It certainly is 
one path to follow, but they don't necessarily make highly 
qualified teachers.
    You know, what are you putting in place to see that these 
teachers really will become highly qualified, these scientists 
and other alternate route people will become truly highly 
qualified classroom teachers?
    Mr. Luce. Let me see if I can respond to each of the 
questions as I recall them.
    One, with respect to specifics of math and science funding, 
the fiscal year 2006 appropriation for math and science was 
$635 million. The fiscal year 2007 request in the President's 
budget is for $961 million, which is a substantial increase in 
our budget in these times.
    Second of all, as you know, and we can always--I know there 
is always a debate about total amount of resources, but No 
Child Left Behind funding has increased 40 percent from 2001 to 
2007, increasing the amount of funds which can be spent on math 
and science; and I think it is our job to convince schools that 
priorities were reading first, math now, science next, and I 
think that is the program that we have launched.
    With respect to the National Science Foundation, we are 
working closely with the National Science Foundation. I have 
met with the National Science Board representatives. National 
Science Foundation is at the table in the Academic 
Competitiveness Council. They are completing the inventory 
forms now, telling us what evaluation techniques they have 
utilized, and then as a group we are going to be discussing the 
possibility of moving toward common metrics so that we can know 
the best programs.
    So we are working closely within NSF to accomplish this, 
and we have had--I have met with the Director of the National 
Science Foundation, the Secretaries met with him. We have 
testified together before, and we have a close working 
relationship.
    Chairman McKeon. The gentlemen's time has expired.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Appreciate you bringing up the TI thing. You know, it 
started--they energized one university, the University of Texas 
at Dallas, and now there are three or four universities 
involved in their engineering program. I hope we are trying to 
do that around the country. Do you know of other situations 
that are similar?
    Mr. Luce. We are trying to spread that word, and we are 
waiting for the outcome evidence in which we could have data to 
show; but I am hopeful that that will result, and I have worked 
closely with Texas Instruments on that program.
    Mr. Johnson. They have been asking you questions about the 
Competitiveness Council. You know there are, I think, 13 
Federal agencies that are involved. How do you get them to 
coordinate? You know, I wonder if we are making any progress. 
Can you tell us?
    Mr. Luce. Well, I think we are. I mean, all the agencies 
are at the table, including Defense. They are meeting 
deadlines. OMB has been active in the process, which, frankly, 
helps more than if Tom Luce were asking for the data. It helps 
if the White House and OMB is asking for the data.
    We know we have a report that is due to you in February 
2007, and I think we are going to meet that deadline.
    Mr. Johnson. They are letting the Education Department kind 
of help them in this----
    Mr. Luce. Yes, sir. Now, I want to make clear there are 
lots of independent agencies with lots of their own 
appropriations; and, I mean, we don't make decisions per se, 
the Department of Education. We chair the committee, but we are 
sharing information in an open way that I think will lead to 
more effective evaluations and more effective coordination. But 
this is not a one-agency-driven council. We chair it, but every 
agency is at the table with their own legislative requirements.
    And again, I mentioned the concern that I think we need to 
make sure that we are working together through these various 
committees to try to make sure that we have some common 
understandings of where we are trying to go.
    Mr. Johnson. Thank you.
    Mr. Archey, to get--you know, we have foreign students that 
can't get an H1 visa, you just said, and China in particular. 
But are we getting enough H1 visas? Are they overwhelming us?
    Let me ask you another associated question: Are they paid 
less than American scientists?
    Mr. Archey. The H1 quote is 65,000 a year. This year it was 
exhausted, I think, in the second day of the fiscal year. There 
are several bills in the Senate to double that and then have 
what is called a market test of if they are all exhausted in a 
certain period of time, that additional H1B visas would be made 
available. So I think that that is the case.
    And your second question? I am sorry.
    Mr. Johnson. Are they paid less than----
    Mr. Archey. That is an interesting question. I would argue 
data that we have, there are some instances where somebody 
comes in H1B, and they are paid less. I would argue that with 
most of our companies, not only do they pay--the word of the 
moment or phrase--the prevailing wage, but you would be 
astonished at how smart these foreign students who are 
graduating are in terms of knowing what the prevailing wage is.
    There have been some instances of some small software firms 
in certain States that have tried to commit and get H1 visa to 
lower the prevailing wage, but the overwhelming majority of our 
companies, they not only pay the prevailing wage because they 
feel they should, they don't have much choice when it comes to 
whether or not they are going to hire somebody.
    Mr. Johnson. Do you think that we are able to increase the 
American participation if we don't increase H1B visas?
    Mr. Archey. Well, that has been an issue. You mean, if 
there were less H1Bs, we would have more American kids doing 
it? History has shown that has not been the case because you 
have less foreign people coming in, more Americans will come up 
or more Americans will, for example, enroll in the University 
of Texas at Dallas in their engineering program. That does not 
correlate. There is no tendency to see that it is a replacement 
of Americans for the foreigner. It doesn't happen.
    Mr. Johnson. Do you know the percentage of foreigners that 
go to our higher education institutions that stay in the United 
States versus go home?
    Mr. Archey. No. That is very difficult because some of 
them--what we do know on data provided by the government is 
that it is more difficult now when a student finishes a degree 
program in the United States to get to stay, to get the H1B. So 
the numbers who have stayed has declined.
    I would just, Mr. Johnson--Congressman Johnson, make one 
other note. One of the other things we are facing in part of 
this whole Competitiveness Challenge is not what is going on 
also in our schools, but we have now--are facing a situation 
with foreign nationals with very significant scientific or 
engineering skills who now have opportunities in their own 
country that didn't exist 10 years ago, and that is a huge 
factor in all of this in terms of the flow of people into the 
United States.
    Mr. Johnson. Thank you, sir.
    Thank you, Mr. Chairman.
    Chairman McKeon. Thank you.
    Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    First of all, I want to say on record that Congressman Holt 
is my favorite geek on Earth and a really good Member of 
Congress. Thank you very much for being who you are.
    Mr. Archey, when you talk about not having enough qualified 
workers, what is the industry doing about retraining existing 
workers for new technologies? I represent Marin and Sonoma 
Counties, just north of the Golden Gate Bridge. It is a high-
tech area surrounded by agriculture, so we are very diverse. 
But I have engineers who come to me and say, look, they are 
hiring H1B engineers, but they won't retrain any of us for the 
new technologies.
    For example, green energy and clean energy technologies are 
new technologies for industry of the future in this country. 
What is your industry doing to retrain those that exist?
    Mr. Archey. The answer to that is going to depend on the 
company. There are some companies that have put a great deal of 
money and effort into retraining current workers. There are 
others that have made the calculus that they are better off 
getting somebody younger immediately out of school with very 
fresh knowledge of whatever that subject matter may be. So it 
is--it is--I don't think you can talk about what the industry 
itself is doing because there is no, if you will, monolithic 
approach to the issue of retraining.
    Ms. Woolsey. Well, as AeA, do you have recommendations or 
guidelines that you help them in this regard?
    Mr. Archey. I think that is a task that is well above our 
job description to be able to tell the companies how to do it.
    Ms. Woolsey. Well, not tell them how. I used to be an 
executive at a company that was a member of AeA, a 
telecommunications company in Marin. We depended on AeA to do 
training and help companies understand what was important. I 
just think that is the way to fill that need, and I just would 
hope the industry would step up to it.
    Mr. Archey. I think they are in some instances; and again, 
I can't tell you that in others they are, but I think there is 
a lot going on.
    Ms. Woolsey. OK. Thank you.
    Ms. Ashby, you talk about women and minorities and the need 
to bring the whole population around to math and science and 
technology. I have legislation called Go Girl that I have 
introduced term after term, and pieces of it are actually in 
the science education bill.
    My bill starts in the fourth grade, encouraging girls and 
their families to understand how important it is that they have 
the choice when they go to college of whether they want to go 
into a technical curriculum; but they would--as we have heard--
need that background anyway no matter what they are going to 
do. Is there enough of that encouragement right now?
    Ms. Ashby. Well, apparently not. The numbers of women in 
the STEM fields are increasing, as the numbers of all the other 
segments of the entire population, but in terms of their number 
relative to the total number of students, it is not increasing, 
and I certainly think a start in fourth grade would help.
    But with all students, you need to start probably earlier 
than that. You need to start with scientific and mathematic 
principles in early childhood development, probably, and make 
it natural, not something that is unusual or that you have to 
take as part of some type of special curriculum.
    Going way back when I was in high school, I studied 
physics, I studied calculus, but I studied them because it was 
part of a college preparatory program. And although I didn't go 
into the scientific field, fields, I had that background. I 
don't think that is the case; and this is the case in schools 
today, that if you are in a magnet school or if you are in a 
special program within the public school system, then you might 
have the opportunity to take advanced science and math, but 
otherwise, there is no requirement that you take it. There is 
no expectation that you take it, and it may not even be 
available.
    Ms. Woolsey. Well, do you see any barriers for women and 
minorities in these fields in education?
    Ms. Ashby. Well, No. 1, we didn't evaluate the programs to 
that extent, but I have worked at GAO in the higher education 
area for most of the last 12 years and am somewhat familiar 
with what goes on, and K through 12 as well.
    I would not say there are barriers per se. I certainly 
would not say there are institutional barriers, structural 
barriers; but a lot of what a person does and becomes is based 
on what is expected of him or her. And to the extent that you 
have teachers who are not--not qualified to teach math and 
science, probably don't have a particular interest in math and 
science, they are not encouraging any students, including women 
and minorities, to go into these fields. And because there are 
fewer women, fewer minorities, there are fewer models, fewer 
role models for students.
    Minorities, for example, might not grow up in a family 
where they know any scientists, know anyone in any of the STEM 
fields. So it is not a likely choice for them.
    So I would not say that there are structural barriers, but 
I will certainly--if we had more qualified STEM professionals 
in the classroom--and by that I don't mean scientists who are 
not teachers--teachers who have both the content knowledge and 
the pedagogy to encourage, we would be better off.
    Ms. Woolsey. OK. Thank you very much.
    Chairman McKeon. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    When I was teaching high school, Sputnik grabbed our 
attention, but the continuing stagnation of math and science 
teaching, it is a continuing stagnation. We have done some 
things, but it is continuing. It has not really greatly got 
sufficient attention by educators, by teachers, by parents. We 
mentioned that. And business seems to be the one group most 
alert and concerned about this.
    I can understand why, because that is the future of our 
economic development and scientific development, engineering 
development, research in this country. Business seems to have 
the sense of urgency more than any other group, and that has 
not really been felt that strongly in government.
    We talk about it here, but it is going to take the 
executive branch and the legislative branch to come together 
and say, this is a crisis in this country, and we have to 
produce more scientists and engineers.
    My question will be directed to Mr. Luce, and then anyone 
can join in. The State PIRGs recently released a report 
entitled Paying Back, Not Giving Back: Student Debt's Negative 
Impact on Public Service Career Opportunities. This report 
revealed the truth about the impact that student debt has on 
young adults' decision to become or not become a teacher. Many 
just cannot afford because there is so--they are so burdened 
with debt to become a teacher. And many of our bills, including 
609, which I was unable to vote for when it passed the House, 
hopefully at some point we will resolve the differences--and 
609--I think Mr. Holt played some role in doing some loan 
forgiveness where 30 years I have been here when we started 
loan forgiveness. Not that long ago, we generally directed to 
where the person was teaching, and I would still support that. 
That is very important.
    But I think we have to also direct it to what the teacher 
is teaching. I am a Latin teacher. I don't want to be left out, 
but I think probably science and engineering are probably a 
little more needful right now than Latin.
    Would the administration help within itself to have a sense 
of urgency of trying to make sure that in order to have 
sufficient output of scientists and engineers, that we have 
sufficient input and really do that in a significant way which 
will cost the government some money, Mr. Luce?
    Mr. Luce. Well, let me say, Congressman, No. 1, our 
Secretary says we have a crisis in math and science. So we feel 
very strongly there is a crisis. Our Secretary articulates 
there is a crisis. We believe there is a competitive crisis. We 
believe there is a domestic crisis in terms of the jobs that 
are being created.
    The 90 percent of fastest-growing occupations require more 
in math and science. We articulate there is a crisis. We have 
numerous student loan forgiveness programs. I can't speak 
directly to the specific issue should money be reallocated from 
one to another, but clearly math and science both in the 
teacher incentive fund.
    In student loan forgiveness funds, we are very focussed on 
trying to get more teachers with math and science content 
knowledge. A key ingredient in that is increasing the K-
through-12 pool of students who go to college ready to major in 
math and science, and that is the essence of our program is 
increasing that pool, which is a dramatic need.
    In addition, there is a dramatic need to take the existing 
teacher corps and give them more professional development help. 
But we agree there is a crisis.
    Mr. Kildee. And you know what concerns me, and one of the 
reasons I had a problem with 609, something that had passed 
before, the $12 billion cut in student aid. I mean, I think 
that if we really wanted to address this in a mass--well, we 
have to put some dollars there, too, not just a get well card. 
Authorization is a get well card. What math and science needs 
is really the Blue Cross card, which is the appropriation. And 
we are--we sent a great get well card to math and science, but 
we did not send them the Blue Cross card or give them the $12 
billion. Thank you.
    Chairman McKeon. Mr. Van Hollen.
    Mr. Van Hollen. Thank you. Thank you, Mr. Chairman. And I 
would also like to thank all of the witnesses for their 
testimony.
    And I share the views expressed by many of my colleagues on 
both sides of the aisle that welcomes the new national focus on 
this question of competitiveness and the need for the United 
States to do more in the education front, particularly math and 
science and engineering, in order to maintain our competitive 
edge. And I thought the report on the gathering storm was an 
important wake-up call.
    I also share Mr. Holt's concerns, and I want to again 
commend him for all his leadership in this area. But I share 
his concerns that this not simply be a big national discussion, 
but that there actually be resources to back it up.
    Mr. Kildee mentioned Sputnik. The missile gap was a wake-up 
call, and the result was lots of resources devoted to these 
areas by the national development. And I am afraid, despite the 
rhetoric, we don't see that same urgency translated into the 
resource side of these things.
    Presidents, Republican and Democrat, Members of Congress 
like to announce new programs to focus on certain things. But I 
want to point out that I think that the big elephant in the 
room in many ways here is the fact that we passed a very 
important piece of legislation in the United States, the No 
Child Left Behind bill, and as of this year, the funds in the 
budget proposed by the administration is $15 billion less than 
what was authorized and what the members of this committee and 
others thought was needed to do the job. And cumulatively now 
since that bill was signed, we are talking about $45 billion 
short. And I mention that because a lot of the funds that we 
are talking about here with specific programs, these--you could 
use No Child Left Behind funds for that.
    Mr. Luce, let me just ask you. I mean, for example, with 
respect to the AP teacher trainings, I think that is a good 
program to teach, but there is no reason that the teacher 
quality funds under No Child Left Behind couldn't be used for 
that, is there?
    Mr. Luce. No, sir. But what I might add is what we have 
also added is an incentive program that would ask the State to 
match the Federal dollar one for one and the private sector to 
match one for one, so we would end up with a triple bang for 
our investment.
    Mr. Van Hollen. Right. But just if you look at Title II, 
for example, just this year it is $288 million short of what 
had been authorized.
    Let me just ask you with respect to math now for middle 
school students, this helping struggling students in middle 
school with math, I think that is, again, a worthy initiative. 
There is no reason why you can't use No Child Left Behind funds 
for that purpose, is there?
    Mr. Luce. No. But we have tried to increase funding for 
math and science, including for middle school.
    Mr. Van Hollen. I understand. I mean, that is $125 million. 
I think it is a worthy initiative, but if you compare that 
against $15 billion short in No Child Left Behind this year, 
the magnitude of the resources that I think are required just 
falls far short. We can wrap up new programs, and I think the 
added attention, as I said, is important. But I am worried, as 
Mr. Holt said, that it is here today, gone tomorrow, when we 
are not--when we are not backing this up with respect to the 
pipeline.
    Mr. Archey mentioned what I think is a huge issue. 
Obviously our employers are driving this, and one of the 
reasons I think that we have a shortfall in skilled workers is 
the same reason we are having trouble getting more math and 
sciences teachers into the classrooms.
    I mean, if you are a graduate with skills in math and 
science, as you say, right now there is a huge demand for your 
services, and you can command a lot more in terms of your 
salary in the private sector. So a school who is trying to 
compete for that same individual with that expertise is put at 
a very big disadvantage, which it seems to me that if we want 
to go from a system where instead of having the teacher who is 
trained in physical education doubling as the math teacher, 
instead have someone who is trained in math doubling as the--we 
need to provide these incentives.
    Now, Mr. Kildee mentioned incentives in terms of loan 
forgiveness and that kind of thing, but Mr. Miller and some of 
us have introduced the Teach Act which would provide, for 
example, a $4,000 a year tuition assistance to those students 
who make a commitment to go into the math and science and teach 
that for a longer time.
    It seems to me we have to work on that pipeline to get more 
teachers in an economy where, as I said, they can go into the 
private sector. If we want them in our classrooms, some of 
them, too--making sure some of those who are best skilled 
teaching our kids, we need to provide them with more 
incentives.
    Mr. Luce, would the administration be prepared to support 
that kind of legislation where we were to provide, again, 
$4,000 a year up front tuition assistance to someone who made 
the commitment to go into the classroom and teach math and 
science?
    Mr. Luce. Well, we have tried to take a very close look at 
our priorities and fit within a budget, and I think we have 
done that. We look forward to working with the committees to 
come up with the right solution, but we have submitted our best 
judgment as to where priorities should be placed.
    We did just increase Pell student aid $4,000 for people who 
major in math and science for their junior and senior years. I 
think undoubtedly a number of those students will go into math 
and science.
    Mr. Van Hollen. This can be----
    Chairman McKeon. Time has expired.
    Mr. Van Hollen. I appreciate your testimony, but I still 
think there is imbalance between the resources and the 
rhetoric.
    Chairman McKeon. Mrs. Davis?
    Mrs. Davis of California. Thank you. Thank you, Mr. 
Chairman. Thank you all for being here.
    I wanted to just follow up for a second on Mr. Holt's 
questions as well in terms of the balance that we have to find 
between tax--R&D tax incentives and also research.
    I am wondering specifically of the ACI proposal on how it 
invests in our public research institutions just if there are 
some specifics that you could share that you think really have 
exceptional promise in creating some of the pipeline that we 
are talking about.
    The other concern is with some programs that exist, and I 
think you have mentioned that we have to take the existing 
corps of teachers, and we have to help them improve so that 
they are able to translate science and technology and 
engineering, all those concepts that kids need to have. Have 
you taken a look at the National Board for Professional 
Teaching Standards program and how we might use that in trying 
to particularly reach teachers in the math and sciences? It is 
my understanding that they have demonstrated that students who 
were in the classrooms of nationally board-certified teachers 
in those fields have demonstrated better preparedness. So have 
we looked at that?
    And the other concern is with, again, an existing program 
that really reaches middle school students, which is the AVID 
program, which recruits university students from throughout the 
country. It is an international program. I hope that you are 
familiar with AVID. And it also helps the students if they are 
taking AP classes in the math and sciences, whatever it is that 
they are focusing on. We might be able to do much more in the 
math and sciences in accelerating and really enhancing that 
program as it relates to the AVID, which is really a mentoring 
program.
    Could you speak to those; and also, just if you could 
quickly on the public research institutions as well. Sorry. I 
had several questions. I am in a markup, so I am trying to get 
a lot in at once.
    Mr. Luce. Yes, ma'am. I will do my best, although the R&D 
increase called for by the President does not fit within the 
Department of Education. The amount in his budget request, I 
believe, is doubled and calls for more emphasis on the physical 
sciences, but that doesn't fall under our administration and 
our Department. So I don't think I am the best person to 
address the specifics of that R&D credit issue. I know there is 
a substantial increase, but none of it is administered by the 
Department of Education.
    Mrs. Davis of California. OK. Thank you.
    On the National Board and AVID program, whether those are 
worthwhile programs to build on and I think to really get the 
best bang out of those especially in these fields.
    Mr. Luce. On the National Board for Professional Teaching 
Standards, I am currently unaware of specific data with regard 
to math and science teachers being reflected by the National 
Board.
    I met with the National Board several times in the last 
couple of years. Their executive director stressed the need for 
outcome data and also for breakdown in terms of math and 
science, and I have been--I have not yet seen that. To my 
knowledge, it doesn't exist; but I have not met with them for 
about a year.
    Mrs. Davis of California. And if we could provide that, 
that might be helpful.
    Mr. Luce. I will do my best to contact them and see what 
they have.
    Mrs. Davis of California. Thank you.
    On AVID, is that something that--you don't know what that 
is. It is a program that actually began out of California, out 
of the San Diego area, that is national and international; and 
it uses advancement by individual determination, and they have 
seen an astounding number of young people the first in their 
family to go to college who have excelled and who have gone on 
to major universities. Clearly without the AVID program these 
students would never have the chance for college. A lot of it 
is focussing on some of the math and science. So I would be 
happy to share that with you, and I am sorry that that hasn't 
come to your attention. Thank you.
    Chairman McKeon. The gentlelady's time has expired.
    Mr. Payne.
    Mr. Payne. Thank you very much.
    I am sorry that I wasn't able to hear your testimony. I 
have been browsing through it, which was not good, because I 
was half listening and half reading, which sometimes I have a 
problem doing one right. But I would--not to mention, evidently 
Mr. Kildee was serving as our expert on education talked 
about--I did hear about the Sputnik and the whole question of 
science and math. I was, you know, in school during that time, 
and it became a national priority.
    Of course, it worked because unfortunately it had to be 
talked about as a national defense question. It is unfortunate 
that we can't just say our country ought to be bright. It is 
unfortunate that we can't say that why doesn't every kid have 
an opportunity to a thorough and efficient education? It is 
shameful that we have to put it under the guise of something 
that sells, you know.
    As a former teacher, I just wonder why it is so difficult. 
Every political person talks about education, whether it is 
municipal, whether it is county or whether it is State. But 
then when it comes down to it, it just seems like we keep 
failing. It is not your fault. It is just something that is 
happening. It is a national defense loan program. It had to be 
in a national military context.
    When kids got out of college or out of high school, they 
went to the bank to ask for a national defense loan. That is to 
go to college.
    Why do you have to invoke war or defense or protection or 
that sort of thing in order to get our education working? But 
that is the way it was. However--and maybe we ought to do that 
today. We could get hundreds of billions of dollars. Let us 
call it a defense thing. I really think we could do our 
education a lot of good if we were able, if we were looking for 
funding.
    I just may have a quick question. I went down to New 
Orleans several weeks ago with members of this committee and 
still struck by the devastation, you just have to see it. I 
imagine some of you have been there. The difficult thing is 
trying to explain to people what you saw, because it is just--
you know, it is just mind-boggling.
    There are, as you know, Historically Black Colleges and 
Universities, of course. We visited Southern University there 
and others. I had to come back. Others went to Dillard, and 
about a week ago we had the president of Dillard here, who 
talked about their problems. Many of the Historically Black 
Colleges are not well endowed, and they--when you are wiped 
out, you are wiped out. I mean, there is no tomorrow, and you 
have to start all over again.
    But as you know, Historically Black Colleges, as many of 
you know, and Universities have greatly contributed to a number 
of scientists and engineers in the country. As a matter of 
fact, a large number of them happened to come from a large 
number of Historically Black Colleges that concentrated on 
science and math.
    Unfortunately Hurricane Katrina had a severe impact on the 
ability of HCBUs in Louisiana to continue their programs and 
retain faculty in these areas. I was talking to Congressman 
Jefferson, who talked about a physicist who was at, I think, 
Dillard or at Southern, one of the top physicists in the 
country, and there is no way in the world he is going to be 
able to stay there. Because of the devastation of the program--
and, I mean, he has already been offered positions, and I 
believe that he is leaving to go to Wisconsin or something. But 
the combination of these events will make it even harder for 
these schools to recruit new students, and also faculty.
    My question is what efforts has the Department undertaken 
to help these schools rebuild their STEM program that they have 
had?
    Mr. Luce. Thank you, Congressman. As a matter of fact, 
today the Secretary of Education is probably there for her 
seventh or eighth trip. She is there with the First Lady.
    We established contact with the officials in Mississippi 
and Louisiana immediately after the hurricane. I went to New 
Orleans myself. Representatives from the Department went to 
Mississippi, Louisiana, Alabama, Texas. We have already 
distributed close to $1.4 million from the Hurricane Education 
Recovery Act. It was signed into law on December 30th, and the 
first installment was sent out on January 5th, and the first 
installment of impact aid went out March 2. We had paid 
particular attention to the needs of the Historically Black 
Colleges. I believe I am correct in saying Dillard produces 
more math and science engineering graduates than any other 
Historically Black College.
    We have met with Dillard, Xavier. We have given charter 
school grants to the State of Louisiana. We also allocated $190 
million to the Louisiana Board of Regents and the Mississippi 
institutions of higher learning. We have also given student 
loans for parents to students impacted by that, and we have 
given aid to colleges and universities specifically up to 
$1,000 per student to help defray the costs that they face.
    I, too, saw it was overwhelmed by the devastation, a sea of 
light blue as you land, which I later learned are the tarps on 
tops of houses, and the devastation is horrendous. That is 
about all you can say.
    But we have also worked with the State to come up with a 
brand new state-of-the-art school district plan for New 
Orleans, and I have hopes that it will be a national laboratory 
where we can help New Orleans best by helping their school 
system to rebuild.
    As you know, it had problems prior to the hurricane, but on 
the other hand, they have a wonderful opportunity to start from 
scratch and build something unique. I am seeing movement in 
that regard, and I am hopeful.
    Mr. Payne. Thank you very much. I appreciate that. Thank 
you.
    Chairman McKeon. Thank you.
    You know, we have been hearing now for a number of years 
that we are facing a huge teacher shortage, a nursing shortage. 
I met with some local car dealers. They told me, we don't have 
mechanics anymore, we have auto technicians, and they are 
facing a severe shortage of auto technicians. I met with the 
head of the association of the truck drivers school. They have 
a huge shortage of truck drivers. They have to hire 40,000 
truck drivers a year. I met with the people from the barber, 
hairdresser, beautician schools. They have a huge shortage of 
barbers and hairdressers. We have heard that we have--a lot of 
our government workers are facing retirement, and we are going 
to have a huge shortage of government workers. Our unemployment 
level is running, what, 4.7, something like that now. A few 
years ago 6 percent was considered full employment.
    All of these shortages are facing us, but I have also heard 
over the last several years from business about the shortage of 
engineers, scientists, math, people that they can't hire 
enough, and they said you need to go to China, you need to go 
to India and see what is happening. I went to China last year. 
I agree with them, we have some real problems.
    I guess the difference between the shortage in the math and 
science compared to the teachers and nurses, all the others 
that I mentioned, is that all of our research and development 
comes from these people that go into math, science, 
engineering. They are the ones that drive the economy into the 
future. So that is why that, I believe, is so important.
    I visited a fifth grade class a couple of weeks ago, and 
the teacher was not a science degree--I don't even remember now 
what his degree was in, but he was so enthused and interested 
in science that he had turned his whole fifth grade class into 
a science laboratory. Every square inch of that room was 
covered with pictures of astronauts or some phase of science in 
the classroom. The class was working on a project right now 
involving explaining the solar system and giving reports on the 
solar system. So that when they study math, or when they study 
English, or when they study any other curriculum in that fifth 
grade, they do it around science and math and how that will 
benefit them.
    I was asking the kids what they were going to be. Several 
of the girls were going into some field of science. I said, 
maybe you haven't heard, but girls can't do science. Girls 
aren't interested in science. They got a good chuckle out of 
that. But it is amazing what this teacher--the enthusiasm that 
he was producing in these young people for science.
    I know we have said we need to have science more from 
background, teaching science, and I agree with that, but we 
should not preclude others that have the ability to engender 
excitement and enthusiasm in these young people.
    It all comes back to a good principal that is going to set 
a proper environment in the school, a good teacher that is 
going to set the proper environment in the classroom, and it 
all starts in the home with parents that are going to inspire 
and motivate their young people to get as much education as 
they can.
    I visited a doctor a few weeks ago, and it turns out he is 
from India. His mother was not able to go to school. His father 
was able to go to the fourth grade. They had seven children; 
their whole emphasis was on educating their children. Three of 
the children became physicians, three of them became Ph.Ds, and 
one of them has a double master's degree, all because they were 
motivated and inspired to get as much education as they can.
    I think that the responsibility of this committee is to try 
to get the whole country turned on to education, because 
ultimately that is what is going to help us maintain our 
competitive edge, right? We have had that since World War II, 
but it is not a given, it doesn't just happen. Leadership makes 
a difference. All of you are helping in that.
    I want to thank you for your participation here today, 
thank the members of the committee who were here and for their 
questions, and encourage you to continue to work with us to 
help us to find the key, or the keys--I think it is much more. 
I don't think there is any silver bullet, that is one thing 
that will make this all happen, but every time we talk about, 
every time we get a chance to motivate people to get more 
education, to inspire it culturally, it is very important. So 
thank you for being here, for participating.
    If there is no further business, this committee stands 
adjourned.
    [Whereupon, at 12:40 p.m., the committee was adjourned.]
    [Additional testimony submitted for the record follows:]
    [The prepared statement of Mr. Norwood follows:]

    Prepared Statement of Hon. Charlie Norwood, a Representative in 
                   Congress From the State of Georgia

    Mr. Chairman, I thank you for hosting what I expect will be the 
second in a series of hearings to examine the President's ``American 
Competitiveness Initiative.'' I appreciate your leadership on this 
issue, and hope that our distinguished panel of witnesses can provide 
additional insight.
    As we learned during the hearing you conducted on April 6th, there 
are several important questions we must ask before Congress plows 
billions into a new math and science initiative designed to beef-up the 
American competitive edge.
    1) What works and does not work in current federal math and science 
programs? 2) Why are current Federal programs intended to train 
American students for high technology jobs failing to do the job? 3) Is 
the federal government making the best use of the taxpayer dollars 
already spent in the name of increasing Science, Technology, 
Engineering and Math (STEM) graduates?
    The GAO reports that the federal government already funds 207 
programs across 13 federal agencies to specifically increase STEM 
graduates; and that is to the tune of nearly $3 billion dollars. 
Regardless of these costs, we continue to lag behind our competition to 
the East in terms of producing graduate and doctoral level candidates 
in the STEM fields. These are fields producing the jobs of tomorrow, 
and increasingly, the jobs of today that American firms cannot fill 
with American workers.
    Despite this troubling trend, there are many voices in Congress--
and many of my friends on this committee--that believe our current 
programs are doing a great job; so great in fact that more programs are 
necessary to meet the challenges of the 21st Century. I understand 
where this conviction comes from, but believe our bureaucracy has some 
explaining to do first.
    The Administration's proposal is well intended, but before this 
Committee endorses a plan that will create several new programs at a 
$50 billion clip over 10 years, we must get firm answers to the three 
questions I outlined above.
    Mr. Chairman, I know you want the answers to these questions and 
trust that the committee will demand them. I thank you for the time and 
respectfully yield back.
                                 ______
                                 
    [The prepared statement of Mr. Porter follows:]

  Prepared Statement of Hon. Jon Porter, a Representative in Congress 
                        From the State of Nevada

    Good Morning, Mr. Chairman. I am pleased that the subcommittee is 
holding today's hearing on the challenges our educational system faces, 
particularly in the fields of math and science. I appreciate our panel 
of witnesses for joining us today and the diverse perspectives that 
they can provide us on this important issue.
    One of the building blocks of our nation's success throughout our 
history has been the ingenuity and invention which allow us to 
continually overcome the challenges we face and fill the needs that we 
have. This ability has traditionally been the product of a free-
thinking and open society, in concert with the excellence of the 
education available to us. As our dynamic economy continues to grow, we 
must continue to rely on this ingenuity and vitality of thought. 
Excellence in the fields of math and science must be a priority for 
this to occur, as our increasingly technological society requires 
increased research and scientific engagement.
    The basis for these abilities lies firmly in the ability of our 
elementary and secondary schools to provide the highest quality math 
and science education available. To ensure that this education is of 
the finest quality, Congress, in concert with States, local education 
agencies, and institutions of higher education, must strive to provide 
the necessary incentives to bring our best and brightest math and 
science teachers into the classroom.
    In my own school district, we hire approximately 2500 new teachers 
per year. A significant portion of these slots are teachers of math and 
science. Our tremendous growth has brought significant challenges in 
recruiting the finest teachers. We can all work together to engender 
greater interest in these fields, so that we can continue our strong 
tradition of technological advancement.
    Again, Mr. Chairman, thank you for calling this hearing today on 
this most important issue. I look forward to the testimony of our 
witnesses and am hopeful that we can work together to provide 
excellence in math and science education to all of our students.
                                 ______
                                 
    [The prepared statement of Vivek Wadhwa follows:]

Prepared Statement of Vivek Wadhwa, Adjunct Professor, Pratt School of 
                      Engineering, Duke University

    Thank you for the opportunity to submit this testimony.
    I have been an Executive in Residence/Adjunct Professor with the 
Pratt School of Engineering at Duke University since September 2005. 
Before this I was a technology entrepreneur and co-founded two software 
companies.
    At Duke University, I advise students on their career choices, 
lecture in classes, conduct research, and work with the faculty to 
better prepare our students for the real world. Based on my experiences 
as a technology CEO, there were two surprises in store for me in my 
discussions with students:
    <bullet> The first was that some students were worried about having 
their jobs outsourced. They asked a question that I couldn't answer--
what courses would lead to the best job prospects and what jobs were 
``outsourcing proof''?
    <bullet> The second was that 30-40% of Duke Masters of Engineering 
Management students were accepting jobs outside of the engineering 
profession. They chose to become investment bankers or management 
consultants rather than engineers.
    This was a surprise as I had always believed that there was a 
shortage of engineers. I had expected that students from top 
engineering schools such as Duke's Pratt School of Engineering would 
take their pick of the best engineering jobs. After further discussions 
with students, I learned that some students saw more opportunity and 
expected better salaries in non-engineering fields. They were headed 
towards the greenest pastures.
    With the assistance of Dr. Gary Gereffi, Professor, Duke University 
Department of Sociology, we initiated research into international 
engineering gradation rates and globalization trends in engineering 
jobs. We assembled a team of five students who worked for a semester to 
conduct the first stage of our research. Our goal was to understand the 
big picture and make recommendations on what fields of education would 
give our engineering students a competitive advantage.
Graduation Number Comparisons of US-China-India
    We started our study by analyzing the ``facts''. We wanted to 
establish a baseline for engineering graduation rates between the US, 
China and India. This would help us understand if there had been a 
trend over time for fewer graduates in US, more in India and China as 
more jobs are outsourced.
    We published a report in December 2005, titled ``Framing the 
Engineering Outsourcing Debate: Placing the U.S. on a Level Playing 
Field with China and India'' (see attached). This shows that some of 
the most cited statistics on engineering graduates are inaccurate. 
Typical press articles have stated that in 2004 the United States 
graduated roughly 70,000 undergraduate engineers, while China graduated 
600,000 and India 350,000. A press release by the National Academies in 
October 2005 announcing a report titled ``Rising Above The Gathering 
Storm: Energizing and Employing America for a Brighter Economic 
Future'' also cited these numbers.
    Our study determined that the above comparison is incorrect. The 
commonly quoted numbers are based on reports issued by the Chinese 
Ministry of Education and outdated reports from the National 
Association of Software and Service Companies (NASSCOM) in India, who 
are generally considered to be the authorities on engineering 
graduation statistics within their respective countries. However, the 
statistics released by these organizations have included not only four-
year degrees, but also sub-baccalaureate degrees and certificate/
diploma holders. These numbers have been compared against the annual 
production of accredited four-year engineering degrees in the United 
States. Additionally, these numbers include not only engineers in 
traditional engineering disciplines such as mechanical, electrical, and 
aeronautical, but information technology specialists and technicians.
    To produce an accurate comparison, we totaled the bachelors (four-
year) and subbaccalaureate (three years or less) degrees awarded in 
engineering, computer science and information technology in the United 
States, China and India. We reported that in 2004 China awarded 644,106 
of the aforementioned degrees, India awarded 215,000 and the United 
States awarded 225,925.
    Looking strictly at four-year degrees and without considering 
accreditation or quality, in 2004 the U.S. graduated 137,437 engineers, 
vs. 112,000 from India. China reported 351,537 under a broader 
category. All of these numbers include information technology and 
related majors.
    We were able to reach a level of comfort in comparing the US and 
India numbers, but noted that the Chinese numbers were suspect. We had 
to rely on information provided by the Chinese Ministry of Education 
and could not gain comfort with their method of collecting information 
or the rigor in validating data. The Ministry of Education told us that 
their aggregate numbers were obtained by adding the numbers of 
``engineering'' graduates as reported by different provinces. These 
provinces were not required to report on degree by major and that there 
was no standard definition of engineering between the provinces.
    There were also questions about what qualifies as an engineering 
program in China. It appeared that any bachelor's or short-cycle degree 
with ``engineering'' in its title was included in their numbers 
regardless of the degree's field or the academic rigor associated with 
it. This means that the reported number of engineers produced may very 
well include the equivalent of motor mechanics and industrial 
technicians.
    After the report was published, we were told by a visiting Chinese 
scholar that the numbers supplied to us by the Ministry of Education 
for 2004 were actually 2003 numbers. The newly released ``2005 Chinese 
Statistical Yearbook'' states the combined number of 2004 bachelors and 
subbaccalaureate graduates was 812,148. There was no indication what 
degrees or fields of education were included in these numbers, however.
    We subsequently obtained a document written in Chinese from the 
website of the China Education & Science Research Network which 
contained a breakdown of degrees for 2004. When we added the 
engineering majors comparable to those the US and India, the total for 
four year bachelors came to 349,000.
    Last semester we researched the Chinese numbers further. A new team 
of students contacted 200 of the 400 Chinese universities that graduate 
engineers. We were able to gather 2004 graduation data from 30 of the 
larger schools. We were told that these universities together graduated 
29,205 in fields which they classified as engineering. Most 
universities could not give us detailed or usable data. We were able to 
get 2005 graduation data from 77 universities. The main conclusion we 
could draw from these data was that universities were reporting 
significant increases in graduation rates for engineers in 2005 over 
2004.

Why Are These Numbers Relevant?
    We hear repeatedly that because India and China are graduating 
twelve times the number of engineers as the U.S., we are at risk of 
losing our competitive edge. We hear demands that the US double the 
number of engineers it graduates to keep pace with India and China.
    I believe that the US does need to significantly increase its 
investment in education; this is one of the most valuable investments 
we can make. We need to improve our math and science curriculum and 
find ways to get our engineering graduates to stay within the 
engineering profession.
    I also believe that we need to be more effective in commercializing 
our university research and to find ways to have America corporations 
keep their research in the U.S. My belief is that there are many 
problems which need to be fixed and that some of these don't require 
massive investments.
    By focusing just on the graduation numbers, I fear that we are 
coming to the wrong conclusions. All it took was a team of five 
students working for one semester to prove that the basic premise of a 
key argument was incorrect; India and China simply don't graduate 
twelve times the numbers of engineers that we do. If you compare 
engineering graduation rates to population, it is clear that the US is 
far ahead and will be for a few more years; and this assumes that an 
average American engineering graduate is equal to an average Indian or 
Chinese graduate.

Are We Really Comparing Apples to Apples?
    There is a major difference in quality of education between the US, 
India and China. Our study did not analyze this, but all available data 
indicates that the vast majority of Indian and Chinese graduates are 
not close to the standards of US graduates. As India and China increase 
their graduation rates, it appears that educational quality may 
actually be decreasing. The Chinese graduation numbers seem 
particularly suspect as it appears that their educational focus is 
quantity vs. quality.
    While it is clear that China is significantly increasing the number 
of engineers and technology specialists it graduates, the data 
indicates that there is a factory like approach to turning out 
graduates. Duke researcher, Ben Rissing notes that degree quality can't 
be maintained unless academic staff and facilities grow with student 
populations. Ris sing cites China's technical school system, which is 
used to educate a portion of China's highly skilled technician 
population. Despite a 100% increase in technical school enrollment over 
the past five years (over one million students enrolled in 2004), China 
has been decreasing its total number of technical schools and their 
associated teachers and staff according to the Chinese Ministry of 
Education (MoE). From 1999--2004 the number of technical schools in 
China fell from 4098 to 2884, during that same period the number of 
teachers and staff at these institutions fell 24% (National Bureau of 
Statistics of China, 2005 China Statistical Yearbook. Table 21-22).
    While technical schools are designed to provide students with 
industry specific skill sets, institutions of higher education educate 
students in a variety of disciplines, including three- and four-year 
engineering offerings. The MoE claims that despite the last five years 
of significant increases in student populations, China's institutions 
of higher education enjoy a student to teacher ratio of just over 16:1. 
However, under closer inspection, the MoE acknowledges that full-time 
teacher numbers include teachers from ``other schools'' (National 
Bureau of Statistics of China, 2005 China Statistical Yearbook. Table 2 
1-32). These statistics raise serious questions about the quality of 
upcoming Chinese engineering and technicians' degrees.
    India's most respected educational institution is the Indian 
Institute of Technology (IIT). Over the years, it has graduated many 
successful entrepreneurs and leaders. Anecdotal evidence indicates that 
IIT graduates are exceptional, but so are the graduates of top U.S. 
schools. Biomedical Engineering Professor Barry Myers says that he has 
always been impressed with IIT graduates to come to study in the U.S. 
But these students are only as good as the average American students 
that he teaches at Duke. The IIT's are challenged by comparatively 
weaker infrastructure and have been impacted by the private sector 
recruiting their faculty into new research institutes. Professor Myers 
says that IIT Deans have visited Duke to recruit recent graduates from 
his program to teach at their schools.

Do We Need More Engineers?
    Salary data for US engineering jobs and anecdotal evidence does not 
indicate any shortage of US engineers. Simply doubling the graduation 
rates of engineers without first understanding what types of engineers 
are needed to maintain our competitive edge may lead to unemployment 
and a reduction in salaries. This will have the effect of deterring 
future generations of Americans from studying engineering.
    As India and China develop their infrastructure, they will need 
more engineers. They need more civil engineers, electrical engineers, 
and mechanical engineers, for example. The U.S has already developed 
its infrastructure and does not need to simply match the growth rates 
of engineers in India and China to remain competitive. There is likely 
to be a high demand in certain engineering professions in the US, but 
there does not appear to be sufficient research into what these areas 
are.
    Engineers develop renewable energy sources, advancements in 
technology, solutions for sustaining the environment and improving 
healthcare. They also manage projects and lead innovation. There is 
little doubt that we need more of the right types of engineers. The 
question is what do we need more of? If we do graduate more engineers, 
how do we motivate these graduates to stay in engineering?

What Should We Do?
            Education and Research
    First, we should look critically at the overall education system 
and continually improve quality. The best way for the nation to stay 
competitive is to have the most educated and motivated workforce. It is 
clear that there are issues in K-12 education and American children 
don't study enough math and science.
    Effective investment in research provides competitive advantage. We 
certainly need to invest more in research; but we also need to look at 
how we can gain more from our existing investments.
    As an ex-technology executive in academia, I have observed a chasm 
between the business world and academia. The priorities are different 
and so are the objectives. I would not do anything to change the way 
research is done or to lose the freedom that our universities enjoy. I 
would however look into ways to bring industry and academia together 
and to create effective partnerships for research commercialization.
    Better industry-university alliances will also provide incentives 
for corporations to keep their research in the U.S. Universities have a 
wealth of untapped talent that can make America more competitive. 
Focused investments can strengthen the research abilities of our 
universities. These are advantages that countries like China and India 
simply don't have--their struggle is to graduate enough engineers to 
keep pace with their growth.
            Understand What Gives Us a Long-Term Competitive Advantage
    Second, we should determine exactly what engineering skills will 
give us a long term advantage and focus on producing more of those.
    In our study, we tried to differentiate between the skill and 
education level of engineers and concluded that those with higher-
quality education would always stay in demand. We differentiated 
between ``dynamic engineers'' and ``transactional engineers''. Dynamic 
engineers are individuals capable of abstract thinking and high-level 
problem-solving. These engineers thrive in teams, work well across 
international borders, have strong interpersonal skills, and lead 
innovation. Transactional engineers may possess engineering 
fundamentals, but not the experience or expertise to apply this 
knowledge to larger problems. These individuals are typically 
responsible for rote and repetitive tasks in the workforce.
    One of the key differentiators of the two types of engineers is 
their education. The capstone design course that some U.S. engineering 
students study in their senior year enables them to integrate knowledge 
gained from fundamental coursework in the applied sciences and 
engineering. Programs like Duke's Masters of Engineering Management 
take this a step further and provide engineers with the skills needed 
to become ``business-savvy'' engineers who are better able to address 
the complex technical and business issues associated with technology 
innovation.
    Contrary to the popular view that India and China have an abundance 
of engineers, recent studies show that both countries may actually face 
severe shortages of dynamic engineers. The vast majority of graduates 
from these counties have the qualities of transactional engineers.
    Differentiating between dynamic and transactional engineers is a 
start, but we also need to look at specific fields of engineering where 
the U.S can maintain a distinct advantage. Professor Myers lists 
specializations such as systems biology and personalized medicine, 
genomics, proteomics, metabolomics that he believes will give the U.S a 
long term advantage.
    Our education system gives our students broad exposure to many 
different fields of study. Our engineers learn biology and art, they 
gain significant practical experience and learn to innovate and become 
entrepreneurs. Few Indian and Chinese universities provide such 
advantages to their students.
            Understand Corporate America Needs
    The fact is that some jobs will be outsourced. We need to determine 
what types of jobs will not be outsourced and understand the long term 
needs of corporate America. If a certain type of engineering job can be 
done more cost effectively in India or China, why should we invest in 
graduating more of those types of engineers?
    Extensive research is needed and surprisingly little information is 
available on what types of engineering graduates corporate America will 
need in the future. My team at Duke is presently conducting such 
research. This will be little more than a drop in the bucket, but we 
need to gather all the information we can.

Conclusion
    The numbers that are at the center of the debate on US engineering 
competitiveness are not accurate. The US may need to graduate more of 
certain types of engineers, but we have not determined what we need. By 
simply reacting to the numbers, we may actually reduce our 
competitiveness. Let's better understand the problem before we debate 
the remedy.

                                 <all>

</pre></body></html>
